<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, JUNE 2, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:18 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senator Dorgan, Feinstein, and Bennett.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF HON. THOMAS P. D'AGOSTINO, UNDER SECRETARY 
            FOR NUCLEAR SECURITY AND ADMINISTRATOR
ACCOMPANIED BY:
        BRIGADIER GENERAL GARRETT HARENCAK, PRINCIPAL ASSISTANT DEPUTY 
            ADMINISTRATOR FOR MILITARY APPLICATION, OFFICE OF DEFENSE 
            PROGRAMS
        KEN BAKER, PRINCIPAL ASSISTANT DEPUTY ADMINISTRATOR FOR DEFENSE 
            NUCLEAR NONPROLIFERATION


              OPENING STATEMENT OF SENATOR BYRON L. DORGAN


    Senator Dorgan. We will call the hearing to order. This is 
the Senate Appropriations Committee Subcommittee on Energy and 
Water Development.
    We appreciate all of you being here. I apologize for being 
just a bit tardy this morning.
    We are here to take testimony from Administrator Thomas 
D'Agostino of the Department of Energy's National Nuclear 
Security Administration on the fiscal year 2010 budget request.
    Joining Mr. D'Agostino at the witness table to help field 
questions will be the two NNSA Principal Assistant Deputy 
Administrators, Brigadier General Harencak--I hope I have that 
correct, Brigadier General. Welcome to you. And Mr. Ken Baker, 
Mr. Baker, welcome.
    This year's budget request of $9.9 billion for the NNSA is 
up $815 million, or almost 9 percent, when compared to the 
fiscal year 2009 appropriation. But almost $600 million of that 
increase is simply a transfer of the MOX fabrication facility 
construction project to NNSA. Excluding that shift, NNSA's 
budget is flat in fiscal year 2010, with only a tangible 
increase in the Naval Reactors Program.
    As we have seen in other parts of the Department of 
Energy's budget request, there are very few positive changes in 
the NNSA budget from fiscal year 2009 to fiscal year 2010. In 
fact, there are numerous program areas where the exact same 
number is requested in fiscal year 2010 as was requested the 
previous fiscal year. Whether it is a weapons program budget or 
the fossil energy program budget, it is hard to imagine that so 
little is truly in need of change over the coming year, and I 
assume we will talk about that this morning.
    I understand that the Nuclear Posture Review is currently 
underway and that this will have an impact on our stockpile and 
perhaps on the complex that supports the stockpile. However, I 
am not sure this is justification enough for decisions to halt 
some of the projects or for the lack of actual positive changes 
in the budget request. The fact is NNSA is going to have a very 
active future. That is clear when looking at the wide number of 
areas that we will discuss today.
    Through renegotiation of the START Treaty and completion of 
the NPR, we are likely to be on a path to fewer nuclear weapons 
in our stockpile. This will require more dismantlement. That 
requires more funding. However, we will continue to have 
nuclear weapons for the near future, and that, too, requires 
funding for stewardship and life extension programs.
    Also, the President announced in April his goal of securing 
vulnerable nuclear material around the world within 4 years. 
That is a very critical issue that we must address 
aggressively, and that, too, will cost some funding.
    Further, whether because of new treaties or actions by 
North Korea and others, proliferation and nuclear detection are 
becoming much more prominent as issues and are also critical 
issues and, once again, require funding. All of these areas 
require resources. A flat fiscal year 2010 budget means 
additional pressures, it seems to me, in the out-years, and 
that is something we will discuss this morning.
    I want to make one final point. The weapons program is 
primarily focused on issues directly related to the stockpile. 
But the fact is, a significant infrastructure funded by the 
weapons programs also benefits other programs, such as science 
and non-proliferation, both of which are important. The NNSA's 
computing program has led this Nation to the forefront of 
computing worldwide.
    I know that the announcement about that, that we have 
computing capabilities now that are not exceeded anywhere in 
the world, was made with great pride and that was done at our 
weapons lab. The program not only serves stockpile modeling, 
but also climate change, non-proliferation modeling, and more.
    NNSA computer modeling has contributed significantly to the 
Intergovernmental Panel on Climate Change. Their non-
proliferation program uses computer modeling to better analyze 
seismic events related to detonation. This fact, I think, seems 
forgotten in the budget request.
    The NNSA's investment in supercomputing has dropped 7 
percent since 2006. By comparison, the Department of Energy's 
Office of Science computing budget has increased 79 percent 
over the same period.
    So we are in a political transition year. The stockpile 
still requires attention. Proliferation is an ever-increasing 
concern, and base capabilities still need to be maintained or 
increased. A flat budget is going to make that a very 
significant struggle.
    I understand, Mr. D'Agostino that you are not ultimately 
responsible for this budget request, but you have, nonetheless, 
come here to answer questions about it. We have seen the Office 
of Management and Budget passbacks that make it clear that OMB 
has significant control in this area. Although this may not 
reflect all of your views on all accounts, we will rely on you 
to explain it today.
    I have always appreciated your candor and appreciated 
working with you, Mr. D'Agostino. I am going to call on Senator 
Bennett for an opening comment. I do want to mention that we 
apparently will have either one or two votes, starting at 11 
o'clock today, and we will recess for that purpose.
    Senator Bennett.


             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT


    Senator Bennett. Thank you very much, Mr. Chairman.
    And most of the items that I intended to cover in my 
opening statement you have already covered. The budget is flat, 
and it is flat in a number of areas that, as you have outlined, 
need to be looked at and improved. It is reduced--this budget 
has reduced science funding and non-proliferation R&D by 
several hundred million dollars. And future funding will 
continue to erode the capability over time. I find that a very 
disturbing trend.
    I have always been willing to fund R&D, particularly the 
kind of pure science that we see in the national labs, and your 
description of the computing power and other things is an 
accurate portrayal of the challenge that we face.
    I support sustaining the test ban moratorium. But if we are 
going to do that, we have to have a significant investment in 
our scientific capabilities and the people and the 
infrastructure that go along to ensure those capabilities so 
that we can accurately predict the status of our nuclear 
deterrent. And I don't believe the budget provides adequate 
funding for the scientific capabilities and falls short in the 
areas you have described.
    So I look forward to working with you, Mr. Chairman, to try 
to repair this damage that has come. And Mr. D'Agostino, I have 
been sitting at the same table where you are in previous 
administrations, and I know the frustrations of making a 
submission to OMB and being told no less how much you are going 
to defend when you get to Congress. And we don't ask you to 
violate your instructions from OMB, but any degree of candor 
you can share with us would be very much appreciated.
    Senator Dorgan. Senator Bennett, thank you.
    We will try to get the sound system fixed here, get it 
turned up just a bit so the audience can hear.
    Senator Feinstein, would you like to make a brief opening 
comment, and then we will go to Mr. D'Agostino?


                 STATEMENT OF SENATOR DIANNE FEINSTEIN


    Senator Feinstein. Well, just one quick thing. I had the 
great pleasure--I guess it was Friday----
    Mr. D'Agostino. Yes, ma'am.
    Senator Feinstein [continuing]. Friday, of being at 
Lawrence Livermore to see the beginning--and Mr. D'Agostino was 
one of the speakers. And to see the beginning of the National 
Ignition Facility, which you have been helpful with, both of 
you, over the years. It has been somewhat controversial, but 
the conversation was so exciting, and that is that it may be 
possible--``may'' is the operative word--to combine fission and 
fusion to really be able to present a brand-new source of 
energy, which not only would be cost effective, but would be 
carbon free.
    And it would appear, and I hope--the reason I wanted to 
come was to ask you more about this--that this might well be 
the new mission of that lab. And I will just end it. I have 
watched the labs and really come to wonder if the right thing 
was done in the privatization of these labs because we have 
lost a lot of valued employees. And the labs are only good if 
they have a mission, and the mission has changed. So I want to 
talk about that a little bit later on.
    But thank you very much.
    Senator Dorgan. Senator Feinstein, thank you very much.
    Mr. D'Agostino, I just alluded to the announcement about 
the Roadrunner, I believe, at Los Alamos, the most powerful 
computer in the world. We have great accomplishment at our 
weapons labs, not dealing just exclusively with weapons. One of 
my concerns is given the changing of the nature of the Bell 
Labs over the years and so on, our national laboratories are 
critically important to this country continuing its edge in 
science and research and technology.
    I am very worried about losing the strength of our 
scientists at these laboratories. We need to continue funding, 
and there are many things that can be done in the weapons labs 
and the science labs that can advance this country's interests. 
I worry very much about diminished funding and losing some of 
our best and most capable people.


                 STATEMENT OF HON. THOMAS P. D'AGOSTINO


    So let me call on you for an opening statement, and then we 
will begin with questions.
    Mr. D'Agostino. Well, thanks very much, Chairman Dorgan, 
and Senator Bennett, Senator Feinstein.
    As you know, I am Tom D'Agostino. I am the Administrator 
here at the National Nuclear Security Administration. I am 
accompanied by Ken Baker, who runs our non-proliferation 
program, and Brigadier General Gary Harencak, who runs our 
defense programs activities and is responsible for maintaining 
the base capability on nuclear security for our program. And we 
do appreciate the opportunity to be here today and to talk to 
you about our programs and to answer your questions.
    Also, in the audience, we have some members of our summer 
student intern program. These are the folks, ultimately, I 
wanted them to come and see the process at work, the way 
Government works. These are the folks that will be leading 
these types of security programs out in the future. We are 
really proud, fortunate to have them here, and it is exciting 
to have young folks in the organization to see what we do and 
to capture, get a little bit of that vision that we saw at the 
National Ignition Facility, get excited about the programs, and 
take us forward. So I'm excited about that.
    As you know, we believe NNSA is critical to the security of 
the United States and our allies. The President's fiscal year 
2010 budget request is $9.9 billion. It is an increase, as you 
said, sir, of about 8.9 percent over the fiscal year 2009 
appropriated level. The budget request provides funding to 
enable the NNSA to leverage science, to promote U.S. national 
security objectives.
    NNSA programs are on the front of the lines of the 
following national security endeavors: maintaining a safe, 
secure, and reliable stockpile and capabilities to support that 
stockpile; accelerating and expanding our efforts here and 
around the world to reduce the global threat posed by nuclear 
terrorism, nuclear proliferation, and unsecured materials; 
providing the United States Navy with safe, militarily 
effective propulsion systems; and supporting U.S. leadership in 
science and technology.
    As the President has initiated bold steps to put an end to 
cold war thinking to lead to a new international effort to 
enhance global security, the 2010 budget request for NNSA is 
the first step. There are other steps, but this is the first 
step towards implementation of this new strategy.
    For our non-proliferation programs, funding increases are 
requested to expand and respond quickly to opportunities to 
reduce global nuclear threats. Increases are also requested, as 
you said, sir, in the Naval Reactors Program to begin 
development of reactor and propulsion systems for the next-
generation submarine, among other activities.
    For the programs in our weapons activities appropriation, 
the budget strategy is to maintain capabilities and activities 
at the current level until the strategic direction is 
established in the upcoming Nuclear Posture Review.
    In President Obama's speech in Prague, he indicated his 
commitment to maintaining a safe, secure, and reliable 
stockpile while pursuing a vision of a world free from the 
threat of nuclear weapons. The NNSA maintains the unique 
knowledge and technical capabilities that are critical to 
achieving both of these objectives.
    Our non-proliferation programs are focused on securing the 
key ingredient of nuclear weapons, in effect, the weapons 
usable materials and the related equipment and technologies. 
Supporting NNSA efforts include the Elimination of Weapons-
Grade Plutonium Production Program, which has been working with 
Russia to shut down Russia's plutonium production reactors, and 
the Fissile Material Disposition Program, which will provide a 
disposition path of 34 metric tons each of U.S. and Russian 
excess plutonium.
    The NNSA is a recognized leader on these and other non-
proliferation initiatives to prevent proliferators or 
terrorists from acquiring a nuclear weapon. This includes our 
activities to secure and reduce weapons-grade nuclear materials 
at sites worldwide, but also our efforts to detect and 
intercept WMD-related materials in transit.
    In addition, we will also work in 2010 to support the 
President's call to strengthen the Non-Proliferation Treaty, 
support the International Atomic Energy Agency, and strengthen 
international safeguards inspections. To implement this 
comprehensive strategy, we will need to expand our cooperation 
with Russia, pursue new partnerships, and work to secure 
vulnerable nuclear material around the world in 4 years.
    Our Global Threat Reduction Initiative and the 
International Material Protection and Cooperation Programs will 
have a major role in this 4-year plan.
    NNSA is actively participating in a national debate over 
our Nation's nuclear security and non-proliferation strategic 
framework. This debate is not just about the size of the 
stockpile and warheads. It includes the inescapable obligation 
to transform our current cold war era nuclear weapons complex 
into a 21st century nuclear security enterprise that retains 
the capabilities necessary to meet emerging national security 
threats.
    In a future with fewer warheads, no nuclear tests, tighter 
controls on materials worldwide, and effective counteraction of 
nuclear terrorist threats, the science and technology 
capabilities will play an increased role, not decreased role, 
in addressing these challenges. We must ensure that our 
evolving strategic posture and our stockpile, non-proliferation 
programs, arms control, and counterterrorism programs are 
melded together in an integrated, comprehensive strategy to 
protect our country and our allies.
    The Department of Defense, as you know, has initiated this 
Nuclear Posture Review, which is scheduled to culminate in a 
report later this year. I want to assure the subcommittee that 
we are active members of that review and we are making sure 
that science and technology that underpins essential policy 
decisions is part of that review.
    As you know, we have made tremendous progress in reducing 
the size of our stockpile in recent years. The stockpile will 
now be less than one quarter of what it was at the end of the 
cold war, the smallest stockpile in 50 years. These reductions 
send the right message to the rest of the world that the United 
States is committed to Article 6 of the Non-Proliferation 
Treaty, which will help create a positive momentum heading into 
the 2010 NPT review conference.
    Each year since the Stockpile Stewardship Program was 
developed, we have been able to certify the safety, security, 
and reliability of the stockpile with no need to conduct 
underground tests. Since 1993, we have acquired a suite of 
capabilities determined necessary to maintain an effective 
stockpile.
    Most recently, as Senator Feinstein has mentioned, the 
National Ignition Facility has come online, and ultimately, we 
are going to be--our goal in the next few years is to actually 
apply these tools to address not only the national security 
problems but maintain the science that we need and to look for 
other opportunities to address our energy issues out into the 
future.
    But the challenge for stockpile stewardship in the future 
ultimately is to really make full use of this suite of tools. 
Following completion of the Nuclear Posture Review, we will 
prepare a 5-year plan, which recapitalizes our infrastructure, 
retains our scientific, technical, and engineering expertise, 
and makes full use of our experiments and supercomputing 
facilities.
    As the subcommittee knows, numerous external reviews have 
identified the fragile state of our technical expertise and 
capabilities, and it ultimately resides in our people. It is 
clear that our people are our most important resource. We need 
to retain those skills and capabilities and develop the next 
generation of scientists, engineers, and technicians needed to 
perform work in non-proliferation, in counterterrorism, and in 
forensics.
    Of course, we need to maintain--these are the same people 
that are responsible for maintaining our stockpile.
    Mr. Chairman and members of the subcommittee, that 
concludes my statement, and I will be pleased and look forward 
to taking your questions.
    [The statement follows:]

            Prepared Statement of Hon. Thomas P. D'Agostino

    Thank you for the opportunity to discuss our vision for the 
National Nuclear Security Administration. My remarks today focus on the 
fiscal year 2010 President's budget request. The budget requested today 
will allow the National Nuclear Security Administration to continue to 
achieve the mission expected of it by the President, the Congress, and 
the American people.
    In a recent trip to Prague, President Obama outlined his vision of 
a world without nuclear weapons. To this end, the United States will 
take concrete steps towards achieving such a world by reducing the role 
of nuclear weapons in our national security strategy and urging others 
to do the same. Until that ultimate goal is achieved, however, the 
United States will maintain nuclear forces sufficient to deter any 
adversary, and guarantee that defense to our allies. To support this 
vision, the National Nuclear Security Administration (NNSA) will 
continue to:
  --Ensure a safe, secure, reliable and effective nuclear weapons 
        stockpile, even if that stockpile is reduced under a START 
        Follow-On Treaty.
  --Reduce the threat to the United States posed by the proliferation 
        of nuclear weapons, and related nuclear materials and 
        expertise.
  --Provide safe, reliable, militarily-effective propulsion systems to 
        the U.S. Navy.
    By pursuing its mission to achieve these ends, and by providing our 
unique knowledge and support to our partners in national security, the 
NNSA will continue to meet its current statutory responsibilities while 
supporting the long-term goal of a world free from the threat of 
nuclear weapons.
    While the President's long-term objectives are clear, the role of 
the nuclear weapons stockpile and America's deterrence policy are being 
reviewed as part of the ongoing Nuclear Posture Review. Efforts are 
underway in the NPR to establish the size and composition of the future 
stockpile and the means for managing geopolitical or technical risk--
NNSA is fully engaged in these activities. Its role is to provide the 
technical and scientific input to inform policy decisions, and then to 
enable the implementation of the decisions.
    NNSA is advancing our knowledge of the physical; chemical, and 
materials processes that govern nuclear weapons operation and is 
applying that knowledge in extending the life of existing weapons 
systems. We have recently completed construction of the National 
Ignition Facility at the Lawrence Livermore National Laboratory (LLNL) 
to explore weapons-critical regimes of high temperature and pressure 
and will begin our first ignition campaign to improve our scientific 
understanding of phenomena that could previously only be explored 
theoretically or in full-scale nuclear testing. The NNSA is also 
conducting warhead Life Extension Programs to ensure that our country 
remains secure without the production of new fissile materials, and 
without conducting underground nuclear tests. On the basis of the most 
recent assessment by the Directors of our national nuclear weapon 
laboratories, today's nuclear stockpile remains safe, reliable, and 
secure. At the same time, we are concerned about increasing challenges 
in maintaining, for the long term, the safety and reliability of the 
aging, finely-tuned warheads that were produced in the 1970's and 
1980's and are well past their original planned service life.
    I am committed to continuing to transform our national laboratories 
and production plants into a smaller and more cost-effective Nuclear 
Security Enterprise. However, I am mindful that our design laboratories 
and production facilities are national assets that support a large 
number of defense, security, and intelligence activities. As the role 
of nuclear weapons in our Nation's defense evolves and the threats to 
national security continue to grow, the focus of this enterprise must 
also change and place its tremendous intellectual capacity and unique 
facilities in the service of addressing other challenges related to 
national defense. We are taking steps to move in this direction, 
including functioning as a national science, technology, and systems 
engineering resource to other agencies with national security 
responsibilities.
    The NNSA fiscal year 2010 congressional budget request will allow 
continued progress in obtaining the essential goals I have outlined. It 
will allow us to:
  --Continue transforming into a Nuclear Security Enterprise by:
    --Involving the next generation of our Nation's scientific, 
            engineering, and technical professionals in the broad sweep 
            of technical challenges;
    --Operating the National Ignition Facility, allowing the use of 
            innovative technology to provide answers to important 
            scientific questions;
    --Shrinking the cold war complex by preparing buildings for 
            decommissioning and decontamination, and replacing these 
            antiquated facilities with modern and efficient facilities; 
            as well as disposing of excess real property through 
            demolition, transfer and the preparation of process-
            contaminated facilities for transfer to the Department of 
            Energy (DOE) Office of Environmental Management (EM) for 
            final disposition;
    --Initiating a Site Stewardship program to ensure that NNSA 
            increases the use of renewable and efficient energy, and 
            reduces the number of locations with security Category I/II 
            Special Nuclear Materials, including the removal of these 
            materials from the Lawrence Livermore National Laboratory 
            by the end of 2012; and
    --Reducing security, safety and environmental risks by 
            consolidating and disposing of excess nuclear materials 
            wherever possible.
  --Support the development and implementation of arms control, 
        nonproliferation, and civil nuclear energy agreements by:
    --Providing technical and policy support to U.S. delegations 
            negotiating arms control, nonproliferation, and peaceful 
            nuclear energy cooperation agreements;
    --Developing the technologies and approaches needed to verify 
            compliance with negotiated treaties and agreements; and
    --Providing training and technical support to the International 
            Atomic Energy Agency.
  --Support U.S. commitments through construction of the Mixed Oxide 
        Fuel Fabrication Facility and Waste Solidification Building to 
        provide a disposition pathway for excess U.S. fissile 
        materials, and to help Russia implement its reciprocal 
        commitments.
  --Continue our successful programs to secure and/or eliminate 
        vulnerable nuclear and radioactive material in other countries, 
        enhance nuclear/radiological material detection capabilities at 
        borders, airports, and seaports, and strengthen 
        nonproliferation practices and standards worldwide.
  --Embark on the design and development of an advanced reactor core 
        and propulsion plant supporting the timely replacement of the 
        OHIO Class Submarine.
  --Overhaul of the land-based prototype reactor plant used to test 
        advanced materials and techniques in a realistic operating 
        environment prior to their inclusion in propulsion plants.
  --Honor the commitments made to those who won the cold war by 
        ensuring their pensions are secure in times of financial 
        uncertainty.
    Today, I'd like to testify on our efforts in Weapons Activities, 
Defense Nuclear Nonproliferation, and Naval Reactors.

                      WEAPONS ACTIVITIES OVERVIEW

    The NNSA will ensure that our nuclear stockpile remains safe, 
secure and effective to deter any adversary, and provide a defense 
umbrella to our allies. At the same time, NNSA will continue to pursue 
a modern more flexible Nuclear Security Enterprise that is 
significantly smaller than the Cold War complex, but is able to address 
a variety of stockpile scenarios.
    As I have committed to you previously, NNSA continues to retire and 
dismantle nuclear weapons. By 2012 our stockpile will be one-quarter of 
the size it was at the end of the cold war. As the United States 
prepares for the 2010 Review Conference of the Nuclear Non-
Proliferation Treaty, this fact alone should emphasize the commitment 
we make to both our Nation and to the world.
    As a full partner in the Nuclear Posture Review, the NNSA is 
working with the Departments of Defense and State to establish the 
plans, policies, and programs that will govern the future posture of 
our nuclear forces and supporting infrastructure. The recently issued 
report of the Bipartisan Congressional Commission on the Strategic 
Posture of the United States will help guide these efforts. These 
reviews will assist the U.S. Congress and the administration in clearly 
defining our future direction.
    As the NPR proceeds, NNSA continues to carry out a number of 
activities in support of the stockpile including warhead surveillance, 
assessment, replacement of limited life components in existing weapon 
systems, and dismantlements. We are also continuing the W76 Life 
Extension Program and a feasibility study with the Air Force for a Life 
Extension Program for some models of the B61 gravity bomb. There are 
also activities planned in the six campaigns and the studies needed for 
Annual Assessment of the stockpile.
    The NNSA will also continue transforming the Nuclear Security 
Enterprise into a modern, smaller, and more flexible complex. The NNSA 
inherited a system of laboratories and production plants designed to 
produce large volumes of weapons and designs needed to counter Soviet 
aggression. We have initiated a major effort to right-size the 
enterprise to meet the new, anticipated requirements. The NNSA is 
consolidating Category I and II Special Nuclear Materials; removing 
these items from selected sites and providing safe, secure storage for 
this material.
    In fiscal year 2010, we will be reducing our infrastructure 
footprint through the deactivation and decommissioning of buildings 
such as Buildings 9206 and 9201 at Y-12. We will also plan for the 
future infrastructure through continuing design of the Uranium 
Processing Facility at Y-12, the Pit Disassembly and Conversion 
Facility at the Savannah River Site, and the Chemistry and Metallurgy 
Research Replacement Facility at the Los Alamos National Laboratory, 
and begin the process of planning for an orderly migration of missions 
to a smaller and more flexible facility at the Kansas City Plant.
    The NNSA has received assistance in our ability to alter our 
infrastructure in the form of an increase in the General Plant Projects 
limit. We are pleased with the decision to increase the ceiling on 
General Plant Projects from $5 million to $10 million. We believe that 
this aids in the maintenance and repair of the enduring enterprise. 
Following on this increase, the NNSA is submitting a legislative 
proposal to similarly increase the design cost limit for these 
construction projects from $600,000 to $1,500,000. We seek your support 
for the proposal.
    But while NNSA is reducing its footprint, and while the total 
number of warheads in the stockpile continues to decline, there are 
capabilities that must be preserved. Not only are these capabilities 
needed to support the maintenance of any stockpile, but they are also 
needed to support the Nuclear Security Enterprise's initiatives in 
nonproliferation, nuclear counterterrorism, nuclear forensics, and 
nuclear incident response. It's important to note that the enterprise 
does not scale linearly with the size of the stockpile; and the need 
for baseline functional capabilities is not eliminated with cessation 
of research into new designs and the cessation of any production of new 
weapons systems. These capabilities are needed whether we have a few 
warheads, or a few thousand.
    Although NNSA did not receive any funds directly from the American 
Recovery and Reinvestment Act, we are assisting other parts of the 
Department in implementing their plans for stimulus work at the NNSA 
sites and stand ready to do more.
    As NNSA prepares for the future, we must focus on the retention of 
our scientific, technical, and engineering personnel throughout the 
complex. Without experienced scientific, technical, and engineering 
personnel, NNSA cannot succeed at its mission. Throughout the cold war 
we were able to attract the Nation's brightest scientists, engineers, 
and technical professionals by providing challenges, facilities, and 
opportunities that were unique, were on the forefront of science, and 
that allowed them to put their talents to work to serve their country. 
Today we are transitioning our emphasis to a broader nuclear security 
mission, but our need to attract the best scientists, engineers and 
technical professionals remains. By developing new scientific tools 
such as the National Ignition Facility, new challenges such as the 
detection of smuggled uranium and plutonium, and the modernization of 
facilities such as the Chemistry and Metallurgy Research Replacement 
Facility, we can continue to attract bright technical minds who wish to 
serve their country. We believe that our response to the spectrum of 
threats to national security is not only the right steps for us to take 
to make the Nation more secure, but also will provide a significant set 
of technical areas that will motivate young scientists to join us in 
our mission.
    The challenges are huge and meeting them calls upon both basic 
science and applied technology. Approximately 70 years ago, Hans Bethe 
advanced the state of science with his critical work explaining the 
physical processes governing the life cycles of stars. Today the 
National Ignition Facility (NIF) stands on the threshold of producing 
stellar conditions in the laboratory. By moving the enterprise forward 
in advancing the boundaries of science, we will continue to attract our 
Nation's brightest minds to our scientific endeavors. In fiscal year 
2009, two significant technological milestones were achieved; crossing 
the one mega joule threshold with NIF and the one petaflop threshold in 
the Advanced Simulation and Computing Campaign.

               DEFENSE NUCLEAR NONPROLIFERATION OVERVIEW

    As part of the President's comprehensive strategy to address the 
international nuclear threat, the President also called for 
strengthening the Nuclear Nonproliferation Treaty, accelerating our 
efforts to secure vulnerable nuclear materials around the world, and 
increasing our work to detect, deter, and eliminate illicit trafficking 
of nuclear materials. The NNSA Nuclear Security Enterprise is actively 
engaged in these and other nonproliferation missions and will provide 
the technical expertise to ensure they are successful.
    The movement of funding for the Mixed Oxide Fuel Fabrication 
Facility and the Waste Solidification Building into the Fissile 
Materials Disposition budget is the largest change in the fiscal year 
2010 Congressional Budget for Defense Nuclear Nonproliferation program. 
These critical facilities provide the nonproliferation programs a 
disposition pathway for at least 34 metric tons of surplus U.S. weapons 
grade plutonium. I'm pleased to report that the United States and 
Russia have agreed on a revised Russian program to dispose of Russia's 
34 metric tons of their surplus weapons plutonium. These changes will 
be codified in a Protocol that will amend the 2000 U.S.-Russian 
Plutonium Management and Disposition Agreement, and we expect to sign 
the Protocol this summer. In light of President Obama's recent 
statements in Prague and London, I am particularly pleased that the 
U.S. and Russian plutonium disposition programs are coming together at 
this time. As a result of these efforts, the United States and Russia 
will ultimately dispose of enough weapons plutonium for at least 17,000 
nuclear weapons.
    I should note also that with this budget request, we are submitting 
our last request for funding to eliminate the production of weapons-
grade plutonium production in Russia by December 2010, through the 
shutdown of Russia's last weapons-grade plutonium production reactor in 
Zheleznogorsk.
    The NNSA directly supports President Obama's goal to accelerate 
efforts to secure all vulnerable nuclear material from around the world 
within 4 years, including the expansion and acceleration of our 
existing efforts. The NNSA is the key agency supporting the 
administration's goal of minimizing the use of highly-enriched uranium 
(HEU) in the civil nuclear sector through our program to shutdown 
entirely or convert HEU fueled research reactors to the use of low-
enriched uranium (LEU) fuel. In fiscal year 2010, we will direct 
significant funding to the Global Threat Reduction Initiative (GTRI) 
mission to eliminate and protect vulnerable nuclear and radiological 
materials located at civilian sites worldwide.
    In fiscal year 2010, we will also improve the physical security of 
nuclear material, as well as facilitate the development and 
implementation of material control and accountability procedures, and 
train personnel, to protect a total of 73 nuclear sites throughout 
Russia and the former Soviet republics. The NNSA will fulfill the 
administration's goal of securing nuclear weapons-usable material by 
ensuring that the material possessed by the Russian Navy, the Russian 
Ministry of Defense, Rosatom and Russian civilian sites is secured.
    But improving the security of weapons-usable material at its source 
is only the start. We must also develop a Second Line of Defense in 
order to anticipate the possibility that nuclear weapons-usable 
material could be smuggled out and transported across international 
borders. And in fact, we know that illicit trafficking in nuclear and 
other radioactive materials continues, especially in Eastern Europe, 
the Caucasus, and Central Asia. In response to the President's charge 
to do more to combat nuclear trafficking, we will install additional 
radiation detection equipment at 42 foreign sites across Europe, Asia, 
and North America, and provide detection equipment in 15 additional 
ports where cargo is loaded for shipment to the United States.
    This work started several years ago. Technology advances and 
foreign personnel turnover have occurred since NNSA first began 
securing sites and borders in foreign countries. Funds will be used not 
only to perform new installations and train personnel at new sites, but 
will also be used to upgrade older equipment at existing sites, and to 
provide refresher training to foreign security professionals.
    Additionally, in fiscal year 2010, NNSA will expand and accelerate 
its Next Generation Safeguards Initiative (NGSI), adding $15 million to 
revitalize the U.S. technical and human capital base necessary to 
strengthen the international safeguards system and the International 
Atomic Energy Agency, in line with President Obama's charge in Prague. 
The NGSI complements related NNSA priorities to reduce proliferation 
risks associated with growing international interest in the use of 
nuclear power; to expand export control training and outreach; to 
develop and implement reliable fuel services as an alternative to the 
further spread of enrichment and reprocessing capabilities; and--
consistent with the President's call for progress towards a world 
without nuclear weapons--to provide technical support for negotiations 
of the START follow-on agreement, Comprehensive Nuclear Test-Ban 
Treaty, and a verifiable Fissile Material Cutoff Treaty.

                        NAVAL REACTORS OVERVIEW

    The NNSA also contributes to national security through the Naval 
Reactors Program. This program ensures that the nuclear propulsion 
plants aboard our Navy's warships remain safe and reliable for their 
complete service lives. Over 40 percent of the Navy's major combatants 
are nuclear-powered. All of the Nation's aircraft carriers, attack 
submarines, guided missile submarines, and ballistic missile submarines 
enjoy the significant operational advantage afforded by nuclear power, 
including speed, endurance, and enhanced combat payload. Through NNSAs 
efforts, nuclear-powered warships are on station where American 
interests are threatened, and ready to conduct sustained combat 
operations.
    For over 60 years, the Naval Reactors program has had complete 
responsibility for all aspects of Naval Nuclear Propulsion. The Naval 
Nuclear Propulsion Program currently supports 82 active nuclear-powered 
warships and 103 operating reactors. This represents 8 propulsion plant 
designs, in seven classes of ships, as well as a training platform.
    Naval Reactors funding supports safe and reliable operation of the 
Nation's Nuclear Fleet. This includes providing rigorous oversight, 
analysis of plant performance and conditions, as well as addressing 
emergent operational issues and technology obsolescence for 71 
submarines, 11 aircraft carriers and four research and development and 
training platforms. This funding also supports new plant design 
projects (i.e., reactor plant for the GERALD R. FORD-class aircraft 
carrier and alternative lower-cost core for VIRGINIA-class submarines), 
as well as ensuring proper storage of naval spent nuclear fuel, prudent 
recapitalization of aging facilities, and remediation of environmental 
liabilities.
    The OHIO-class SSBNs, which are the most survivable leg of the U.S. 
Strategic Forces, are approaching the end of their service lives. The 
Navy recently completed studies for a follow-on replacement to the 
OHIO-class and is funding the commencement of design work in fiscal 
year 2010. NNSA funding in fiscal year 2010 supports reactor core and 
propulsion plant design and development efforts to support this 
replacement.
    Since 1978, the land-based prototype reactor plant (S8G) has 
provided an essential capability to test required changes or 
improvements to components and systems prior to installation in 
operational ships. The prototype has also provided required, high-
quality training for new sailors preparing to operate the Nation's 
nuclear-powered vessels. This land-based prototype will run out of fuel 
and require a refueling overhaul starting in 2018. This overhaul and 
the resultant opportunity to test advanced materials and manufacturing 
techniques in a caustic operating environment will significantly 
mitigate risk in the OHIO Replacement reactor plant design. To support 
the refueling overhaul schedule, concept studies and systems design and 
development efforts will begin in 2010.
    The Expended Core Facility, located at the Naval Reactors Facility 
on the Idaho National Laboratory, is the central location for Naval 
spent nuclear fuel receipt, inspection, dissection, packaging for dry 
storage, and temporary storage, as well as detailed examination of 
spent cores and irradiation specimens. Continuous, efficient operation 
of this facility is vital to ensure the United States can support fuel 
handling operations in our shipyards conducting construction, repair, 
and restoration of nuclear ships. The existing facility and related 
infrastructure is over 50 years old and requires recapitalization. The 
mission need for recapitalizing this capability has been approved and 
conceptual design efforts begin in 2010.
    The Program continues to explore and develop potentially advanced 
technologies that could deliver a compellingly better energy source for 
nuclear ships. For example, using a supercritical carbon dioxide energy 
conversion as a replacement for the traditional steam cycle is 
envisioned to be significantly smaller for the same power output, 
simpler, more automated, and more affordable. Leveraging existing 
university, industry, and Nuclear Security Enterprise scientific and 
engineering work in this technology, conceptual development and small-
scale testing is underway to support eventual megawatt-scale testing 
and prototyping.
    Acquisition of a new surface combatant (i.e., cruiser) in support 
of new ballistic missile defense and anti-air warfare mission 
requirements are currently under evaluation by the Navy. Based on these 
mission requirements, this new ship will potentially require higher 
energy capacity and output than is currently available from traditional 
fossil fueled power plants. Further, the National Defense Authorization 
Act (NDAA) for 2008 authorizes the Navy to construct all future major 
combatant vessels with integrated nuclear power systems unless this 
requirement is waived by the Secretary of Defense. The Navy is 
currently analyzing alternative shipboard systems that will determine 
final power plant requirements. Should the Navy decide to pursue a 
nuclear-powered cruiser in its current long-range shipbuilding plan, 
DOE-cognizant reactor core and propulsion plant design and development 
will be required.
    The value of nuclear power for naval propulsion is well recognized 
and the demand for its inherent capabilities remains strong. By taking 
every opportunity for economies in our work and business practices, we 
have made a concerted effort to meet the Navy's demand for new 
propulsion plant designs while assuring the safe and reliable operation 
and maintenance of the existing fleet. However, the need to deal with a 
formidable collection of new challenges coupled with the Program's 
aging infrastructure and environmental legacies requires a fortified 
level of resource commitment.

NNSA Future-Years Nuclear Security Program
    The NNSA fiscal year 2010 congressional budget request is $9.9 
billion, a total of $815.4 million above the fiscal year 2009 
appropriations. Of the 8.9 percent increase, about 7 percent is 
attributable to the re-location of funding for the Mixed Oxide Fuel 
Fabrication facility project back to NNSA in the Defense nuclear 
Nonproliferation appropriation.
    The NNSA budget justification contains information for 5 years as 
required by section 3253 of Public Law 106-065, entitled Future-Years 
Nuclear Security Program (FYNSP). The fiscal year 2010-2014 FYNSP 
projects $50.4 billion for NNSA programs through 2014. The principal 
increases from the fiscal year 2009-2013 FYNSP are: the transfer of 
funding for the Mixed Oxide (MOX) Fuel Fabrication Facility project 
back from the Office of Nuclear Energy to NNSA; the multi-year 
initiative to further enhance global nuclear nonproliferation efforts; 
and some of the increase required to support the development of the new 
generation submarine reactor replacement. For Weapons Activities, the 
outyear projections reflect only a continuation of current 
capabilities, pending upcoming strategic nuclear policy decisions. The 
fiscal year 2011-2015 budget process is expected to present a fully 
integrated Future Years Nuclear Security Program budget aligned with 
the new strategic direction and program requirements for all of the 
NNSA programs.

NNSA Budget Summary by Appropriation and Program
            Weapons Activities Appropriation
    The Weapons Activities appropriation funds five NNSA program 
organizations. (There are six subheadings below. Combining ``Site 
Stewardship'' and ``Infrastructure and Environment'' would reduce the 
count to five and mirror the NNSA structure.) The fiscal year 2010 
congressional budget request is $6.4 billion for Weapons Activities, 
essentially level with fiscal year 2009 appropriation.
            Defense Programs
    The fiscal year 2010 congressional budget request for Defense 
Programs is $5.0 billion, a decrease of 1.1 percent from the fiscal 
year 2009 appropriation that is primarily attributable to transitioning 
the Pit Disassembly and Conversion Facility and the Waste 
Solidification Building to other programs. The outyear projections for 
Defense Programs reflect a continuation of current programs and 
services pending further national nuclear policy direction expected 
during 2009.
    Within the President's Budget request level, the NNSA will continue 
all programs to meet the immediate needs of the stockpile, stockpile 
surveillance, annual assessment, and Life Extension Programs (LEP). As 
directed by the Nuclear Weapons Council, a feasibility and cost study 
was initiated in September, 2008, to investigate the replacement of 
aging non-nuclear components in the family of B61 bombs, and to study 
the potential incorporation of modern safety and security features in 
these systems. Included in the program are efforts to complete the B61 
Phase 6.2/6.2A refurbishment study evaluating end-of-life components, 
aging, reliability, and surety improvement options. The decrease within 
the Directed Stockpile Work (DSW) request is attributable mainly to the 
relocation of the funding for the Pit Disassembly and Conversion 
Facility (PDCF) to Readiness in Technical Base and Facilities (RTBF) 
and the Waste Solidification Building (WSB) to Defense Nuclear 
Nonproliferation.
    The Campaign activities for Science, Engineering, Inertial 
Confinement Fusion and Advanced Simulation and Computing maintain the 
fiscal year 2009 funding level throughout the FYNSP. The Science 
Campaign consolidates a new subprogram called ``Academic Alliances'' 
that encompasses the funding for university grants, alliances, and the 
joint program with Science. The Engineering campaign increases emphasis 
on Enhanced Surveillance and Systems Engineering Technology in the 
fiscal year 2010 congressional budget request. The Inertial Confinement 
Fusion Ignition and High Yield Campaign is requested at $437 million, 
and in fiscal year 2010, the emphasis shifts away from NIF assembly and 
toward Facility Operations as the program continues to refine 
requirements and prepare for the first ignition experiments in 2010. 
The fiscal year 2010 congressional budget request for the Advanced 
Simulation and Computing Campaign provides growth in physics and 
engineering models as support shifts away from hardware procurements 
and system software.
    The Readiness Campaign funds the development and deployment of 
modern manufacturing capabilities to produce materials and components 
in compliance with weapon design and performance requirements and in 
accordance with Life Extension Program and refurbishment schedules. In 
fiscal year 2010, the Readiness Campaign will focus on supporting the 
Tritium Readiness activities and high priority projects to deliver new 
or enhanced processes, technologies, and capabilities to meet the 
current needs of the stockpile. The reduction in Tritium Readiness was 
planned, and is due to the cyclical nature of production.
    The Readiness in Technical Base and Facilities request is $62 
million above the fiscal year 2009 appropriations. The increase is 
attributable to additional funding provided to mitigate increased 
pension costs at the M&O contractor sites. Within the request for 
operating expenses, an increase is included for the Kansas City Plant 
supporting the work for the move to a new, smaller facility. Funding 
for construction projects is requested at $203 million to sustain 
ongoing construction and design efforts. The location of funding for 
the PDCF project has been changed from DSW to RTBF. One new 
construction project is requested: the Nuclear Facilities Risk 
Reduction Project at Y-12 will provide maintenance to sustain uranium 
related capabilities at Building 9212.
    The Secure Transportation Asset program is requested at $234.9 
million, an increase of 9.6 percent over the fiscal year 2009 
appropriation. The STA program plans to acquire a total of three 
transport category aircraft. One 737-type aircraft will be purchased 
each year--starting in fiscal year 2010, fiscal year 2011, and fiscal 
year 2012 to replace the aging aircraft. In addition to the aircraft 
purchases, the remaining increase will be used for training and 
equipment.

            Nuclear Counterterrorism Incident Response (NCTIR)/
                    Emergency Operations
    The NCTIR program responds to and mitigates nuclear and 
radiological incidents worldwide as the U.S. Government's primary 
capability for radiological and nuclear emergency response. The fiscal 
year 2010 congressional budget request for these activities is $221.9 
million, an increase of 3 percent over fiscal year 2009 appropriations. 
The increase reflects funding growth in three specific areas of the 
program--International Emergency Management and Cooperation, Emergency 
Response, and Render Safe Stabilization Operations. These initiatives 
support increased efforts to address serious emergency management 
programs in priority countries, while continuing and completing ongoing 
programs with the International Atomic Energy Agency (IAEA) and other 
international partners and countries; scientific breakthroughs for 
Render Safe Stabilization Operations and the Technical Integration 
programs and continued implementation of National Technical Nuclear 
Forensics for pre- and post-detonation phases and the Stabilization 
aspect of nuclear emergencies through development of first generation 
stabilization equipment including training and maintenance programs to 
selected teams nationwide in support of better emergency response 
capability.

            Infrastructure and Environment
    This organization is responsible for the Facilities and 
Infrastructure Recapitalization Program, (FIRP) and the new Site 
Stewardship Program which encompasses Environmental Projects and 
Operations (EPO) that provides for Long-Term Stewardship (LTS) at NNSA 
sites after remediation is completed by the DOE Office of Environmental 
Management, Nuclear Materials Integration, Stewardship Planning which 
contains a renewable energy efficiency project; and may ultimately 
include deactivation and demolition activities.
    The fiscal year 2010 congressional budget request for FIRP is 
$154.9 million, an increase of 5 percent above fiscal year 2009. This 
provides funding for recapitalization, infrastructure planning and 
construction. The increase supports continued progress in restoring the 
condition of mission critical facilities and infrastructure across the 
Nuclear Security Enterprise to an acceptable condition. The program's 
original goals established in fiscal year 2003 include: elimination of 
$1.2 billion of deferred maintenance, achieving a Facility Condition 
Index (FCI) of 5 percent, and elimination of 3 million gsf of excess 
facilities. The original $1.2 billion deferred maintenance buydown goal 
is based on the requirement to meet the FIRP commitment of 5 percent 
FCI for all facilities. The program's deferred maintenance goal was 
adjusted in fiscal year 2007 to eliminate $900 million of deferred 
maintenance by fiscal year 2013 as a result of transformation decisions 
that reduced facility deferred maintenance requirements. The principle 
assumption governing FIRP is that the program will be funded only 
through fiscal year 2013.
    The fiscal year 2010 congressional budget request for Facilities 
and Infrastructure Recapitalization is $154.9 million, an increase of 5 
percent above fiscal year 2009. This provides funding for 
recapitalization, infrastructure planning and construction. The 
increase supports continued progress in restoring the condition of 
mission essential facilities and infrastructure across the Nuclear 
Security Enterprise to an acceptable condition.
    The fiscal year 2010 congressional budget request for the new GPRA 
Unit, Site Stewardship, is $90.4 million. The goal of the Site 
Stewardship Program is to ensure environmental compliance and energy 
and operational efficiency throughout the Nuclear Security Enterprise, 
while modernizing, streamlining, consolidating, and sustaining the 
stewardship and vitality of the sites as they transition within NNSA's 
plans for transformation. The Site Stewardship program will institute 
and maintain a robust operational framework at the NNSA Government-
owned, contractor-operated sites that encompass responsibility for 
achieving the NNSA mission. This new GPRA Unit will encompass 
activities currently under Environmental Projects and Operations (EPO) 
and will include new subprogram elements Nuclear Materials Integration 
(NMI) and Stewardship Planning. In the I&E organization only EPO was 
funded (as a separate GPRA unit) in fiscal year 2008 and fiscal year 
2009 and is reflected as such for those 2 years since this is a non-
comparable budget submission. The Environmental Programs and Operations 
increases 7 percent over the fiscal year 2009 appropriation to address 
ongoing and new regulatory-driven Long Term Stewardship activities at 
NNSA sites where Environmental Management activities have been 
completed. Nuclear Materials Integration provides focused attention on 
the consolidation and disposition of specific NNSA special nuclear 
materials. Current activities include the de-inventory of security 
Category I and II Special Nuclear Material (SNM) from LLNL and also the 
consolidation and disposal of inactive actinides at other sites. Funds 
for these material consolidation and disposal activities are being 
transferred from Defense Programs to Infrastructure and Environment in 
fiscal year 2010.
    The majority of the requested fiscal year 2010 funding increase of 
$28 million is in Stewardship Planning for an operating expense-funded 
project, the Pantex Renewable Energy Project (PREP) at the Pantex 
Plant, that will create a more flexible, more reliable, and 
environmentally friendly source of renewable energy that supports DOE/
NNSA operating goals and missions. The PREP will generate surplus 
electrical energy, reduce greenhouse gas emissions at local power 
plants, enhance energy security, and create jobs. This modular, 
operating expense-funded project will play a key role in satisfying 
NNSA's renewable energy objectives consistent with DOE Order 430.2B, 
Departmental Energy, Renewable Energy and Transportation Management.

            Defense Nuclear Security
    The fiscal year 2010 congressional budget request for Defense 
Nuclear Security is $749.0 million to support the base program and on 
sustaining the NNSA sites 2003 Design Basis Threat baseline operations, 
and begin initial steps to implement the Department's new Graded 
Security Protection (GSP) policy. During fiscal year 2010, the program 
will focus on eliminating or mitigating identified vulnerabilities 
across the Nuclear Security Enterprise. Funding for one new 
construction start is requested for the Security Improvements Project 
(SIP). The SIP will install a new security system to manage and 
integrate personnel security and access control systems at the Y-12 
National Security Complex.
    Starting in fiscal year 2009, there is no longer an ``offset'' in 
this account or the Departmental Administration Appropriation for the 
security charges associated with reimbursable work. In the fiscal year 
2010 congressional budget request, mission-driven activities will 
continue to be fully funded with direct appropriations, but security 
required for Work for Others will be covered as part of full cost 
recovery for these projects. Institutional security activities will 
continue to be funded by indirect or general and administrative costs 
at each site.

            Cyber Security
    The Cyber Security program will sustain the NNSA infrastructure and 
upgrade elements that will counter cyber threats from external and 
internal attacks using the latest available technologies.
    The fiscal year 2010 congressional budget request for Cyber 
Security is $122.5 million, an increase of 1 percent over the fiscal 
year 2009 appropriations. The Cyber Security program is in the process 
of a major 5-year effort focused on revitalization, certification, 
accreditation and training across the NNSA enterprise. Revitalization 
enables NNSA to respond to its highest priorities and to address 
current and future risks; certification and accreditation assure proper 
documentation of risks and justification of associated operations for 
systems at all sites; and, education and awareness provides training 
for Federal and contractor personnel to meet expanding skill 
requirements of NNSA cyber security and information environments.

            Defense Nuclear Nonproliferation (DNN) Appropriation
    The DNN program goal is to detect, prevent, and reverse the 
proliferation of Weapons of Mass Destruction (WMD). Our programs 
address the threat that hostile nations or terrorist groups may acquire 
weapons of mass destruction or weapons-usable material, dual-use 
production or technology, or WMD capabilities, by securing or 
eliminating vulnerable stockpiles of weapon-usable materials, 
technology, and expertise in Russia and other countries of concern.
    The fiscal year 2010 congressional budget request for the DNN 
appropriation totals $2.1 billion. The most significant fiscal year 
2010 and out-year increases relate to the request to move the funding 
for the MOX Fuel Fabrication Facility project and the WSB back to 
NNSA's DNN Programs. The NNSA has funded the MOX Fuel Fabrication 
Facility project and the WSB baseline increases within the requested 
funding for fiscal year 2010 and the outyears. Other increases include 
International Materials Protection and Cooperation (INMP&C) and 
Nonproliferation and International Security (NIS), both of which 
increase 38 percent over the fiscal year 2009 levels.
    Funding in the INMP&C fiscal year 2010 congressional budget request 
of $552.3 million is an increase of 38 percent over the fiscal year 
2009 appropriated level. This increase is the first step in fulfilling 
President Obama's promise during his Prague address that the United 
States will expand its partnership with Russia and pursue new 
partnerships to eliminate or secure vulnerable nuclear materials. This 
budget provides for sustainability support to Russian warhead and 
material sites with completed INMP&C upgrades, INMP&C upgrades to 
areas/buildings agreed to after the Bratislava Summit and the projects 
to assist the Russian Federation and other partner countries in 
establishing the necessary infrastructure to sustain effective MPC&A 
operations. In addition, the budget provides for the Second Line of 
Defense program and the installation of radiation detection equipment 
at 43 foreign sites and 15 Megaports.
    The fiscal year 2010 congressional budget request for the NIS 
program is $207.2 million, an increase of 38 percent over the fiscal 
year 2009 appropriations. This supports the Next Generation Safeguards 
Initiative (NGSI), which aims to strengthen the international 
safeguards system and revitalize the U.S. technical base and the human 
capital that supports it; as well as nuclear disablement, 
dismantlement, and verification activities in North Korea; policy and 
technical support for U.S. efforts to address proliferation by Iran, 
North Korea and proliferation networks; and the implementation of 
nuclear arms reduction and associated agreements.
    The fiscal year 2010 congressional budget request for the Global 
Threat Reduction Initiative (GTRI) is $353.5 million, a 10.5 percent 
reduction from the fiscal year 2009 appropriations. Most of this 
decrease results from the completion of the Kazakhstan Spent Fuel work 
in CY 2010. The fiscal year 2010 congressional budget request of $24.5 
million for the Elimination of Weapons Grade Plutonium Production 
(EWGPP) is the final increment of U.S. funding needed for this program. 
The significant reduction in the budget reflects close-out and 
completion of the construction activities for the Zheleznogorsk 
Project.
    The Nonproliferation and Verification R&D program is requested at 
$297.3 million, a decrease from the fiscal year 2009 level. This 
decrease reflects both an unrequested congressional addition in 2009 
and NNSA's funding in 2009 of the total required in 2009 and 2010 for 
the Physical Sciences building in Washington State. The $297.3 million 
is sufficient to support long-term R&D leading to detection systems for 
strengthening U.S. capabilities to respond to current and projected 
threats to national and homeland security posed by the proliferation of 
nuclear weapons and diversion of special nuclear material. Almost a 
third of this funding is for production of operational nuclear 
detonation detection sensors to support the Nation's operational 
nuclear detonation detection and reporting infrastructure through joint 
programs with DOD.
    The President's Request for Fissile Materials Disposition is $701.9 
million, reflecting the transfer of funding for the MOX Fuel 
Fabrication Facility project and WSB projects back to this program. In 
addition to these U.S. plutonium disposition activities, the program 
supports three other principal elements: efforts to dispose of U.S. HEU 
declared surplus to defense needs primarily by down-blending it into 
low enriched uranium; technical analyses and support to negotiations 
among the United States, Russia, and the International Atomic Energy 
Agency on monitoring and inspection regimes required by a 2000 U.S.-
Russia plutonium disposition agreement; and limited support for the 
early disposition of Russia's plutonium in that country's BN-600 
reactor including U.S. technical support to oversee work in Russia for 
early disposition of Russian weapon-grade plutonium in fast reactors. 
The United States and Russia began negotiations on amendments to the 
2000 Agreement in 2008, and expect to complete the negotiations this 
summer.

            Naval Reactors Appropriation
    The NNSA's Naval Reactors program continues to provide the U.S. 
Navy with safe, military effective nuclear propulsion plants and ensure 
their continued safe and reliable operation. The fiscal year 2010 
congressional budget request for Naval Reactors is $1,003.1 million, an 
increase of 21 percent over the fiscal year 2009 appropriations.
    This increase provides additional funding to initiate the new 
mission work for the design and delivery of a new reactor core and 
propulsion plant to support the next-generation submarine design, and 
refueling of the S8G Prototype, one of two land-based reactor plant 
prototypes that serve as a testing platform for nuclear technology. 
Significant outyear funding is required for both of these activities. A 
portion of the fiscal year 2010 increase will also support Naval 
Reactors pension responsibilities.

            Office of the Administrator Appropriation
    This appropriation provides corporate direction, Federal personnel, 
and resources necessary to plan, manage, and oversee the operation of 
the NNSA. It provides funding for all Federal NNSA staff in 
Headquarters and field locations except those supporting Naval Reactors 
and the Secure Transportation Asset agents and transportation staff.
    The fiscal year 2010 congressional budget request of $420.8 million 
reflects a decrease of $18.4 million that is attributable to 
Congressionally-directed projects funded in fiscal year 2009. Staffing 
increases in fiscal year 2010 by 28 full time equivalents (FTEs) from 
1,942 to 1,970 reflecting functional transfers and growth to 
accommodate mission program increases. The projected staffing level for 
fiscal year 2010 is 1,970 and is maintained throughout the outyear 
period. The Historically Black Colleges/Hispanic Serving Institutions 
programs will continue through fiscal year 2010 on grants made by 
appropriations provided in fiscal year 2009 and through program 
funding. The fiscal year 2010 congressional budget request includes 
$4.1 million for the Massie Chairs and related activities only.

    Senator Dorgan. Mr. D'Agostino, thank you very much. I 
appreciate very much your appearance and the appearance of 
Brigadier General Harencak and Ken Baker as well.
    Let me just make a quick comment first. I noted that an OMB 
document earlier this year called for a study of moving the 
NNSA out of the Department of Energy and into the Department of 
Defense. It reminds me that bad ideas have unlimited shelf life 
here in the Nation's capital, and also that bad ideas are 
bipartisan.
    This is a bad idea that has been debated and long ago 
discarded. So if you get a chance to talk to OMB, would you 
suggest that they close the cover of that book and move on?
    Mr. D'Agostino. Yes, sir. I will be glad to.

            FUTURE OF THE LOS ALAMOS NEUTRON SCIENCE CENTER

    Senator Dorgan. Thank you very much.
    I understand that the budget proposal that you are here to 
discuss proposes eliminating funding for the refurbishing of 
what is called the Los Alamos Neutron Science Center, or the 
LANSCE facility. We have an OMB passback calling for canceling 
this project. So perhaps it was not your decision, but there is 
no funding for LANSCE refurbishment in the 2010 request, though 
it was provided $19 million in last year's request.
    I am told that there is no other classified facility 
capable of the scientific research being conducted at LANSCE. I 
am told to replace the LANSCE facility or to make another 
facility, such as SNS, at Oak Ridge classified would be more 
expensive than refurbishment.
    So, a couple of questions, do you believe that LANSCE is 
important to the Stockpile Stewardship Program?
    Mr. D'Agostino. Yes, I do, sir.
    Senator Dorgan. Considering the age of the stockpile and 
non-proliferation treaties, do you think keeping the LANSCE 
facility operating in the future will be important for the 
country?
    Mr. D'Agostino. Absolutely. I think it will be useful to 
help us in neutron cross-section measurement, which is what it 
is doing right now, and to exploring what we call proton 
radiography, which is a different way of examining what is 
actually going on inside very dense materials, and to do the 
nuclear science and material science work. We think the country 
needs that in the future.
    Senator Dorgan. Without refurbishment, how long is the 
LANSCE expected to be an effective facility?
    Mr. D'Agostino. That is a tough question to answer. Most of 
what we are doing right now is accepting risk if we don't 
refurbish the facility, risk that the accelerator pieces are 
going to get to a point where they will age out. Already some 
of the components are hard to replace.
    So what we are in right now is a maintenance mode, keeping 
it working. In fact, that is our plan out into the future--
keeping the facility working out into the future. My goal is to 
revisit this discussion or revisit the question because I do 
think, in the long run, what we do with LANSCE ultimately has 
to be integrated with the bigger picture on science and the 
technology that we need to maintain out in the future.
    And so, my goal would be to essentially make sure it keeps 
operating, one; keep doing the experiments that we need, two; 
and three, figure out, make sure that we have an integrated 
picture post NPR, once the NPR is done, that figures out how 
science and technology fits in.

                         SCIENCE FUNDING TRENDS

    Senator Dorgan. Well, at this point, we are not talking 
about the Reliable Replacement Weapon, or the RRW program, but 
we are talking about stockpile stewardship, which I understand 
is increasingly reliant on science. So the question is, given 
the heavy reliance on science for stockpile stewardship and 
reliability, how do we reconcile flat funding in the area of 
science?
    Mr. D'Agostino. What we did, as a result of a number of 
changes that have happened over the last 3 months, frankly, I 
have decided that it was much more important to make sure that 
we stem and stop the decrease in our science programs that was 
happening, as you noted in your remarks earlier. And so, what 
we did is some reallocation, quite frankly, in the last few 
months, about $130 million worth to stop the decrease where 
science was going, and then--what I would call stop the 
bleeding, and then start getting in on the repair side.
    So where are we right now, it is my plan, at least, this is 
the low point on science is stopping the decrease, and then we 
are going to need to be reinvesting out into the future, fiscal 
year 2011 budgets and the like.
    You will notice, sir, and as you have said, the numbers are 
exactly the same. And you said, was that coincidence or what? 
It is not--what are the chances of having an exact same out-
year number? And its chances are zero. And the reality is I 
have submitted to you or to Congress--the President has 
submitted to you essentially a program that says this is a 1-
year look. The administration has just come in, established 
some very aggressive and some broad goals that it wants to 
implement in the nuclear security arena.
    And because of that, some of these programs, the idea of 
securing materials worldwide in 4 years; as you mentioned, this 
Comprehensive Test Ban Treaty piece; fissile material cutoff 
piece; the new START Treaty; the dismantlements; those require 
a fair amount of detailed program planning that we are doing 
right now. And we didn't have time to reflect that 
appropriately in the out-year budget request. So you will see 
these strange-looking numbers, and that is why.

                       NUCLEAR NON-PROLIFERATION

    Senator Dorgan. Given what has happened in the world in 
recent days, weeks, months, it seems to me that the issue of 
nuclear non-proliferation is unbelievably important. It is 
something people don't talk about in coffee shops. I understand 
that. It is not part of the contemporary debate on talk shows. 
But it is unbelievably important.
    It appears that that account is flat-funded, and the 
President announced his goal to secure all nuclear material 
around the world by 2012. As I understand it, a team of 
officials was sent to Moscow some weeks ago to begin 
negotiations for replacing the START Treaty. Last week, North 
Korea, we think, set off their second nuclear weapon in 3 
years.
    With such increased emphasis on the need for nuclear test 
monitoring, verification research and those kinds of activities 
in the nuclear non-proliferation budget, how is it that the 
research and verification is reduced significantly? I mean does 
that square with anything that I just described or with 
anything that you believe?
    Mr. D'Agostino. I will explain how it squares. I do believe 
out into the future, you will be seeing a fairly different 
program from us. But let me start off with the following, if I 
could. You mentioned North Korea. And I would like, Mr. Baker, 
if you could, to talk to some of the details on the research 
and development program.
    The intelligence analysts that this country has used over 
the last--well, certainly very aggressively over the last 10 
days or so, but obviously, in the previous years, that analyze 
what is happening in the world, both nuclear smuggling, 
proliferation of not just materials, but components, missile 
technology, and the like. Most of those experts ultimately 
come, as you are probably aware, from this program, and they 
start off at the base. They start off in the General's program, 
and they end up being supportive to the intelligence agencies 
and the like.
    So we know what we know because of those folks. Ken Baker 
can talk about the research and development program and why the 
budget changes the way it does.
    Mr. Baker. I agree with you, Senator. It is a very 
dangerous world out there, probably more so than ever, even 
when we were back in the cold war, in my opinion.
    The research and development program has been reduced. The 
reason why it has been reduced this year, we had an $85 million 
plus-up last year over the President's budget, and we have 
finished the work at the Pacific Northwest laboratory, which 
was something like $40 million. That program is down. It is 
critical to us. It will be critical in the CTBT. It will be 
critical in START.
    It is a very important program, and again, I think you will 
see in the next years, as we work this 4-year plan, that 
budgets will increase in the future.
    Senator Dorgan. Senator Bennett?
    Senator Bennett. Thank you, Mr. Chairman.
    And I would like to follow up on the line of questioning 
you have already begun.

    IMPACT OF FLAT-FUNDING ON WEAPONS AND NON-PROLIFERATION PROGRAMS

    Mr. D'Agostino, you say funding is level, but, in fact, 
there are internal demands that make the amount of money that 
actually--to use an analogy that we have out in the West, the 
amount of water that actually gets to the end of the ditch is 
smaller than the overall numbers would indicate. I am talking 
about the pension shortfalls.
    It is my understanding that you have to make up some of the 
pension shortfalls of your contractors. Is that correct?
    Mr. D'Agostino. That is correct, Senator.
    Senator Bennett. All right. The numbers I have say that the 
contributions paid to DOE contractors in their pension plans 
from 2008--2003 to 2008 was $330 million, and you expect to pay 
$1.5 billion per year over the next 5 years, with the peak 
contribution years estimated to come in 2012 and 2013 at just 
under $2 billion per year.
    Now if you are going to deduct most of the savings out of 
the operating budget and delay facility closures and preventive 
maintenance and consolidation of special nuclear materials, 
obviously the top-line number is deceiving. So I think the 
trend is simply unsustainable. It will have a devastating 
impact on the weapons and non-proliferation program, and I want 
to know what the Department has considered, actions being taken 
to mitigate this problem over the next 5 years.
    Mr. D'Agostino. Yes, sir. You are absolutely right. With 
those kinds of numbers with no changes, that is an 
unsustainable path. It is an unsustainable program. But I will 
tell you what the Department has done at this point. And what 
the Department, I say the administration has done, quite 
frankly.
    One is when we first started this year, we were faced with 
this immediate problem. So we looked in just fiscal year 2009 
at areas where programs weren't spending, we didn't see the 
expenditure rate, things had gotten slow to start, and we 
figured out what could shift back a little bit. And we also 
made some adjustments to our overhead rates to get through 
fiscal year 2009. Otherwise, we would have been in the process 
of sending out literally tens of thousands of letters to all of 
our employees saying that their pension fund is underfunded.
    So that took care of fiscal year 2009. And for fiscal year 
2010, which is the current budget, we have received an 
increase. The total liability is on the order of close to $300 
million that we were potentially expecting in 2010. So what we 
received is an increase of about $122 million in order to 
address specifically the pension shortfall in our fiscal year 
2010 budget. That leaves, of course, $160 million of 
uncertainty.
    The way the pension process works, and I apologize for 
giving the long answer, is every January we go off and take a 
look at where we are, kind of a snapshot look. And that sets 
the trend for the upcoming year. This past January, we thought 
next year would be worse, and that is why we have come up with 
$122 million.
    We don't know what January is going to look like. So what 
we have taken is a big step in the right direction toward 
addressing our 2010 shortfall with the understanding that the 
financial situation will be different in January. It might be 
worse. It might be better. But we wanted to at least approach 
the solution with the backup plan to make some adjustments to 
our indirect rates. That kind of will spread the problem a 
little bit more broadly.
    So it is a dynamic problem, we look at it on a monthly 
basis. And this is, unfortunately, we are in a situation where 
we are going to be looking at it on this regular basis out into 
the future. But in the end, it is going to require, I believe, 
increases to top lines if we continue to see the past 
performance.
    Senator Bennett. That is the point I wanted to make and 
want to have clear on the record, that, at some point, the top 
line has to go up, or everything else suffers from it. We are 
in a fool's paradise if we say, ``Oh, we are keeping the 
funding level,'' when, effectively, we are not for these 
reasons.
    Mr. D'Agostino. Yes, sir.

  RESEARCH INTEGRATION BETWEEN THE DEPARTMENT OF ENERGY AND NATIONAL 
                    NUCLEAR SECURITY ADMINISTRATION

    Senator Bennett. Now let us talk about the need for 
scientific leadership within NNSA. I think we need to consider 
a new position within NNSA to steward and cultivate scientific 
research.
    Such an individual could help raise awareness of both 
weapon science and non-weapon science that goes on at the labs 
and work to integrate research among the DOE and NNSA labs. And 
the grand challenge of energy security and climate change 
science are of such complexity that this work, I think, should 
be shared with all the labs. I had reference made to that when 
I was out in the labs, when you were kind enough to give that 
tour.
    So I am considering a modification to the NNSA Act to 
create a new position within NNSA that would report directly to 
you, and it would--this position would lead the NNSA science 
program and work with the rest of the Department to integrate 
the national security capabilities with those in basic applied 
programs within DOE. Can you give me your reaction to that 
idea?
    Mr. D'Agostino. Yes, sir. Though not part of the NNSA Act, 
I think consistent--particularly after our trip that we took 
about a year and a half ago sir, we talked about the importance 
of science. Dr. Dave Crandall, who used to run the Research, 
Development, and Simulation Program in the weapons program, I 
brought him up to advise me. He doesn't have an official role, 
if you will, as you have described, from an authority 
standpoint. But in effect, he is doing some of that work as a 
chief scientist.
    I think the idea of having a named position is a good idea. 
It is very consistent with our drive to not so much focus just 
on nuclear weapons science, but to focus on nuclear security 
science, which will address non-proliferation, 
counterterrorism, forensics, and then, more broadly, work with 
the rest of the Department, the Office of Science, to draw 
those links together and show how these computers and these 
people can address global problems.
    So I am very favorably disposed to your suggestion, sir.
    Senator Bennett. All right. Well, I am glad you are using 
Dr. Crandall. But he has no budget authority and no mission 
responsibility.
    Mr. D'Agostino. Right.
    Senator Bennett. And so, I will be talking to you about how 
we might proceed on that.
    Mr. D'Agostino. Yes, sir.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Feinstein?
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
trust this mike is not working.
    Senator Dorgan. Turn it on and speak directly into it, if 
you would?
    Senator Feinstein. Hello? It is working.

   NUCLEAR POSTURE REVIEW, WEAPONS TREATY NEGOTIATION, AND STOCKPILE 
                               REDUCTION

    Mr. D'Agostino, it is my understanding, and the chairman 
touched on this, that you are involved in two efforts. One is 
the negotiation for a new nuclear weapons treaty with Russia, 
and the other is the Nuclear Posture Review that is due out the 
early part of 2010.
    It has been reported that this new treaty could set a new 
ceiling of 1,500 operationally deployed nuclear warheads for 
each nation, down from 1,700 to 2,200 under the Moscow treaty. 
Is that, in effect, true?
    Mr. D'Agostino. There are a lot of numbers. The short 
answer is we haven't closed on the details. There are a lot of 
numbers being bantered around. The President has made it very 
clear that he wants a number lower than the 1,700 to 2,200 
number.
    Where we are right now in the Nuclear Posture Review, which 
is the kind of committee of people that will be briefing the 
National Security Council and, ultimately, the President, quite 
frankly, in the next relatively short period of time, we are in 
the discussion phase of examining the policy. What is the 
policy that the Nation wants to carry forward into the future? 
And what size of stockpile is needed to maintain that policy 
strongly?
    There is a 1,500 number floating around out there. There 
are some lower numbers. There are some higher numbers, and I 
would rather not try to make a commitment right now.
    Senator Feinstein. Yes, all right. Well, that is fine. I am 
for the lowest possible number, as you know.
    Mr. D'Agostino. Yes, ma'am.
    Senator Feinstein. I think the buildup of huge nuclear 
weapons, 90 percent of which are owned by Russia and the United 
States, really endangers the world and really opens us up to 
all kinds of problems. So you know my views on this subject 
well.
    Mr. D'Agostino. Yes, ma'am.

         COSTS AND RESULTS OF NUCLEAR LABORATORY PRIVATIZATION

    Senator Feinstein. What is the total loss of employees at 
our nuclear labs since the privatization?
    Mr. D'Agostino. We have lost--as I have looked at the 
numbers going back in time for the last 3 or 4 years or so, the 
NNSA overall has changed, if you will, about 1,500--I will get 
to your answer. But overall, about 1,500 folks a year or so out 
of the 32,000, which we started off with, have been coming out.
    Senator Feinstein. Well, what is the total? I know it is 
over 2,000 at Los Alamos alone.
    Mr. D'Agostino. Yes, it is. The total is probably between 
3,000 and 3,500, give or take. It depends if we are counting 
not full-time lab employees, but temporary lab employees. But, 
in essence, it is in the thousands. It is a fairly significant 
number. It is a number that was about 2,500 or so last year 
when we talked to you, talked to the subcommittee here last 
year.
    It is a number that, for the most part, the lab directors 
have focused on driving these changes not with their scientists 
or engineers, though they have had to get into that some. But 
most of these reductions have happened as a result of 
administrative personnel being more efficient, quite frankly. 
And George Miller has got some good examples.
    Senator Feinstein. I am not talking necessarily about any 
one particular lab. I can tell you this. When I visited Los 
Alamos, the most significant thing I took away from it was the 
lack of people in that facility.
    Mr. D'Agostino. Right.
    Senator Feinstein. And I am concerned by it. And I remember 
the budget last year and the year before when you have these 
enormous fees to run these labs and those fees have been paid 
by cutting employees. And I think that is just a fact.
    Now the question comes, what does this do to the mission? 
And I am very concerned about it because I think the mission is 
subtly changing, the mission of the labs. I think the 
privatization is toward pushing things into the private sector, 
and the purpose of these labs is really to do some of the most 
advanced work that keeps this Nation ahead of others. And I am 
very worried about it and not at all sure that it is the right 
thing to have done.
    So let me ask you this question. Since the privatization, 
what would you name as the three big achievements produced by 
privatization?
    Mr. D'Agostino. What I would say the first achievement is 
on security. We have seen some huge improvements in security at 
both of the laboratories since privatization.
    Senator Feinstein. Okay, granted. And that is where the 
university was weak, and that has been picked up, and the 
security has improved. What else?
    Mr. D'Agostino. The other area is in management systems. 
Frankly, Los Alamos, for example, spread out over 43 square 
miles, was, in essence, a balkanized set of smaller 
laboratories, each operating slightly different procedures and 
procurement processes. It was very inefficient and caused 
problems.
    So the new management has drawn the lab together much more 
tightly and has driven----
    Senator Feinstein. Okay, and a third?
    Mr. D'Agostino. And has driven----
    Senator Feinstein. My time is going to--it is up, so a 
third?
    Mr. D'Agostino. Oh, okay. The third area I would see is 
focus. We have seen the kind of responsiveness to driving 
change and just as you described it very clearly, mission 
change. I would look at mission change to shifting from a cold 
war mission focus to a future world mission focus. I have seen 
movement on both of those laboratories and, in fact, working 
together, the two laboratories working together on establishing 
a new mission that I haven't seen in previous years.
    And I have worked in this program for a number of years 
and, quite frankly, am very impressed with the focus that Norm 
Pattiz has driven, as the Board of Governors, into making sure 
that there is responsiveness to the Government there. I 
recognize that there are downsides, too, ma'am, as well, as we 
talked about.
    Senator Feinstein. Well, I just--in one sentence. I would 
agree that there have been administrative changes, security 
changes, and that is good--at a tremendous price.
    And I am still--and maybe there is focus, but what I want 
to see is, what is the increased productivity in terms of 
benefit to the Nation? Candidly, I haven't seen it. So if it is 
there, I would hope you would advise me of it as time goes on.
    Mr. D'Agostino. I would like to do that, and I would 
actually like to take that for the record, if I could, and then 
provide that in writing?
    Senator Feinstein. I would be happy if you would do that.
    Senator Dorgan. Well, before the Senator from California 
leaves, we have had testimony from some laboratory directors 
about the substantial increased cost of the contracts to 
supervise these laboratories. We have also had some testimony 
about how these costs have ratcheted up, up, way up in a very 
dramatic fashion, and that eats into the ability to retain the 
scientists.
    I would like to understand this. I understand your answer 
that there have been some benefits, and I accept that security 
and other things. But it is also the case, isn't it, that the 
substantial increase in costs of these contracts to manage 
these laboratories by the private sector have increased? Could 
you send us some analysis of the weapons labs so that we can 
understand what those increases have been?
    Mr. D'Agostino. I would like to do that, Senator. I think 
that would be great. Or I could answer it now? It depends on 
how much time you have, sir.

                      LASER-POWERED FUSION ENERGY

    Senator Dorgan. Well, I want to ask Senator Feinstein to 
ask a few questions about the fission/fusion observation she 
saw because I am also interested in that. If you have time and 
you want to ask those questions, let me yield to you so that we 
can hear that discussion.
    Senator Feinstein. All right. The place is amazing. I have 
never seen anything like it. It truly looks like Star Wars. And 
the fact that you can get all of these lasers concentrating on 
this little tiny target of hydrogen encased in this gold pellet 
that goes ``boom'' and pushes out all of this energy. Now this 
just in my layperson's first blush is truly amazing.
    I think a purpose of the lab--or of this program, 
obviously, is to see that our nuclear weapons are safe without 
testing, and the assumption is that it will be able to do it. 
But the promise for the future is so great in terms of nuclear 
science and what nuclear science might produce as we develop 
the green economy. I mean, that is kind of the way I see it, 
but you may differ with that, Mr. D'Agostino?
    Mr. D'Agostino. No, ma'am. You have actually characterized 
it quite well. The three main purposes, first of all, the 
primary purpose is to support the deterrent. And frankly, I 
call it building that core group of varsity science team people 
that we need to address the non-proliferation problems that the 
country faces, the forensics and intelligence analysis that the 
country needs. That is number one.
    Number two, obviously, is advance the basic science. And 
number three, you have hit on it, is this idea that there is 
the opportunity to bring fusion into the picture to address a 
carbon-free kind of energy environment.
    So what I would say on the third element, which, of course, 
is kind of nirvana in some respects, and we will describe it 
that way, is the first step is to get to ignition. And we can't 
get to fusion without ignition. So our focus, our eyes will be 
focused in 2010 on getting a first credible ignition experiment 
and then seeing where that goes.
    The laboratory clearly has some proposals in that area on 
what the next step might be. I love the enthusiasm of the 
scientists and engineers there. It is captivating. It is 
energizing. I also want them to be pragmatic and realistic 
because I need to come and tell you what we believe we need in 
order to have an effective program.
    I believe it is time to start thinking about the next step, 
but it is not time to start figuring out, start pouring 
concrete because we are not quite there yet. So the first step 
is to do the ignition experiments, get success on fusion here 
on Earth. It has never been done before. It is a real tough 
problem.
    As Ed Moses said, Mother Nature is a tough person to deal 
with, and that reality is there. But it is quite exciting about 
what the future may hold.
    Senator Feinstein. Tom Friedman visited the lab last month 
and wrote a column, and he said if this thing works, it is a 
``holy cow'' game changer. And that is the fusion, and I guess 
eventually fission then, that is to keep the waste down, right?
    Mr. D'Agostino. The idea is fusion will release a 
tremendous--yes, ma'am. The fusion will release a tremendous 
amount of X-rays and neutrons that can ultimately be used to 
burn up, in effect, waste to these actinides and deal with what 
they call a fusion/fission hybrid. It is this idea of taking--
--
    Senator Dorgan. But pure fusion consumes its waste, doesn't 
it?
    Mr. D'Agostino. Pure fusion only generates helium, which is 
the helium gas. So it is not a problem. So, in effect, it 
doesn't really generate the kind of waste we see from fission, 
which generates these highly radioactive wastes. But what it 
does do, sir, is generate these neutrons and X-rays that can go 
help us burn up these materials that we would like to get rid 
of, ultimately.
    Senator Dorgan. As you can tell, we have a very strong 
scientific background here.
    Mr. D'Agostino. You did very well, sir.
    Senator Dorgan. The cloture vote just started, just an 
observation. I toured a lab the other day. It reminded me when 
you talked about lasers. Lasers are used for so many things. I 
toured a lab the other day in which they are using 
sophisticated computer technology and lasers to target female 
mosquitoes. Those are the ones that bite.
    Senator Feinstein. As all species.
    Senator Dorgan. I couldn't have said that. But at any rate, 
they can target over a 100-yard area all the mosquitoes and 
target the female mosquitoes, destroy the mosquitoes with 
lasers. It is pretty extraordinary, part of what they are 
trying to do is deal with malaria and other issues.
    At any rate, again, Mr. D'Agostino, we have a cloture vote 
that has started. What I would like to do is I have other 
questions, and I want to send you a list of questions and ask 
that you would respond for the record as we begin to get down 
the road here and evaluate what we might want to do on the 
appropriations side.
    I do want to say to you that I think this subcommittee has 
an advantage in working with you, and we appreciate you and 
your colleagues who have joined you today, the work that you 
are doing. These are challenging times, and I think a lot of 
the discussion has been about Earth-penetrating, bunker-buster 
weapons, or RRW, or a whole ranging of things over recent 
years.
    Life extension programs and stockpile stewardship are 
critically important, but now, especially now, the issue of 
non-proliferation and nuclear intelligence and those things, we 
are going to rely on your agency in a very significant way. And 
we need to have the best people there. We need to have adequate 
funding. In many ways, our future depends on that.

                     ADDITIONAL COMMITTEE QUESTIONS

    So let me thank you and your colleagues for being here, and 
we will be submitting additional questions for the record.
    Mr. D'Agostino. Thank you, sir. And thank you, Senator 
Feinstein. I appreciate it.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                            NUCLEAR WEAPONS

    Question. As you know, Congress, on a clear bi-partisan basis, 
eliminated all funding for the Reliable Replacement Warhead program in 
fiscal year 2008 and fiscal year 2009. I am pleased that the 
administration has requested no funding for this program in its fiscal 
year 2010 budget request. This is good news.
    What factors led the administration to request no funding?
    Answer. The decision to terminate the RRW program was a 
Presidential decision and is fully supported by NNSA. NNSA will 
continue to assess the requirements to maintain our aging nuclear 
deterrent. While doing so, NNSA will ensure that all weapon activities 
designed to ensure the longevity of that deterrent are properly 
integrated with the overall nuclear security strategy being formulated 
in the Nuclear Posture Review.
    Question. In your testimony, you state: ``. . . we are concerned 
about increasing challenges in maintaining, for the long term, the 
safety and reliability of the aging, finely tuned warheads that were 
produced in the 1970s and 1980s and are well past their original 
planned service life''.
    Are you leaving the door open for reviving RRW at a later date? Can 
we say that the program is dead?
    Answer. The RRW program has been terminated and will not be 
revived. We will by necessity have to address critical stockpile 
challenges through the Life Extension Program (LEP), such as the need 
to enhance weapon safety and security, address aging systems that have 
a low performance margin to failure, or use exotic and hazardous 
materials.
    Question. The administration has begun to negotiate a new nuclear 
weapons treaty with Russia with the goal of concluding an agreement by 
the end of the year. A new Nuclear Posture review is also due by the 
end of the year and I am pleased that the National Nuclear Security 
Administration is actively engaged in both efforts.
    How will the Nuclear Posture Review influence the size of the 
reductions in each nation's stockpile?
    Answer. The NPR made it an early priority to accomplish the 
analysis necessary to support the START Follow-on treaty negotiations, 
which President Obama and President Medvedev directed should be 
completed before START expires in December 2009. This analysis has 
concluded that maintaining a nuclear triad with a bilaterally 
verifiable reduced number of operationally deployed strategic nuclear 
weapons and accountable strategic delivery vehicles would enhance our 
national security objectives and continue to provide extended 
deterrence to allies and friends. As a result, President Obama reached 
a Joint Understanding with President Medvedev in July, stating that ``. 
. . each party will reduce and limit strategic offensive arms so that 7 
years after entry into force of the treaty and thereafter, the limits 
will be in the range of 500-1,100 for strategic delivery vehicles, and 
in the range of 1,500-1,675 for their associated warheads. The specific 
numbers to be recorded in the treaty for these limits will be agreed 
through further negotiations.'' Strategies for augmentation forces and 
non-strategic weapons are still under review by the NPR team. For more 
information on pre-decisional Nuclear Posture Review topics, please 
contact:
    Note.--Source: Dr. Bradley Roberts, Deputy Assistant to the 
Secretary of Defense for Nuclear and Missile Defense Policy Co-
Director, 2009 Nuclear Posture Review.
    Question. It has been reported that the new treaty could set a new 
ceiling of 1,500 operationally deployed nuclear warheads for each 
nation, down from 1,700 to 2,200 set by the Moscow Treaty.
    Is that your understanding? Can we go lower?
    Answer. NNSA will maintain the stockpile the President deems 
necessary to support our national security. In July, President Obama 
reached a Joint Understanding with President Medvedev, stating that ``. 
. . each party will reduce and limit strategic offensive arms so that 7 
years after entry into force of the treaty and thereafter, the limits 
will be in the range of 500-1,100 for strategic delivery vehicles, and 
in the range of 1,500-1,675 for their associated warheads. The specific 
numbers to be recorded in the treaty for these limits will be agreed 
through further negotiations.'' The NPR is continuing analysis of 
alternative strategic approaches beyond the immediate confines of the 
START Follow-on negotiations to frame options for strategic nuclear 
decisions for the next 5-10 years. This analysis includes investigating 
possible future security environments in which relations with Russia 
dramatically improve, as well as implications if the START Follow-on 
treaty does not enter into force or if reset of the U.S.-Russian 
relationship does not continue.

                    NUCLEAR NONPROLIFERATION EFFORTS

    Question. I firmly believe that ratification of the Comprehensive 
Test Ban Treaty is critical to reclaiming U.S. leadership in the 
nuclear nonproliferation field and bringing us closer to a world free 
of nuclear weapons. Does the National Nuclear Security Administration 
support ratification of the Comprehensive Test Ban Treaty?
    Answer. NNSA certainly supports the administration's decision to 
seek ratification of the CTBT. We are confident that the science-based 
Stockpile Stewardship program, when linked with weapon system 
surveillance and life extension programs, will assure weapon safety, 
security, and effectiveness. The same high level of technical expertise 
and relevant experience that NNSA applies to stockpile management 
without underground testing also allows NNSA to play a leading role in: 
(1) preventing other states from evading the Treaty; (2) supporting the 
establishment, sustainment, and operation of the International 
Monitoring System, the CTBT On- Site Inspection regime, and other 
elements of the CTBT verification system; and (3) sustaining and 
improving U.S. National Technical Means to ensure viable independent 
treaty verification.
    Question. I applaud your commitment to supporting President Obama's 
goal of securing all vulnerable nuclear materials from around the world 
within 4 years. What do you need from Congress to meet this goal? What 
programs will be involved? What are the key challenges?
    Answer. The President's April 5, 2009, Prague speech outlined an 
ambitious strategy to address the international nuclear threat, 
including measures to reduce and eventually eliminate existing nuclear 
arsenals, halt proliferation of nuclear weapons to additional states, 
and prevent terrorists from acquiring nuclear weapons or materials. As 
part of this strategy, the President announced a new American effort, 
working with our international partners, to secure vulnerable nuclear 
materials around the world within 4 years. NNSA will play a key role in 
these efforts, together with our colleagues at the Departments of 
State, Defense, and other key U.S. interagency and international 
partners.
    NNSA's Defense Nuclear Nonproliferation office already partners 
with over 120 countries to address global nuclear proliferation and 
nuclear terrorism threats. However, contributing fully to the 
President's goal to secure all vulnerable nuclear material worldwide 
within 4 years will require expanding our cooperation with Russia and 
other key countries, pursuing new partnerships to secure materials, and 
strengthening nuclear security standards, practices, and international 
safeguards. The administration is working to identify priorities for 
expanding and accelerating U.S. nonproliferation and nuclear security 
efforts overseas with available resources. Key challenges in 
contributing NNSA workscope to help achieve the administration's 
nuclear security vision relate to obtaining the necessary agreements 
from sovereign countries for this cooperation, as well as the need for 
related legal agreements and, in a few cases, new technological tools.

                              WEAPONS LABS

    Question. A few years ago, the U.S. Government privatized the DOE 
weapons labs, including Lawrence Livermore National Lab in California. 
Soon after, it became clear that the decision had changed the economy 
situation at the lab. With a need to pay both taxes and produce a 
profit, the lab made significant cutbacks in employment, from 5,872 to 
5,715 employees.
    Now a few years into this process, what do you see as the benefits 
of privatizing this lab? Please be as specific as possible. Do you 
believe these benefits still outweigh the costs?
    Answer. Lawrence Livermore National Security, LLC (LLNS) took over 
management of the Lawrence Livermore National Laboratory (LLNL) from 
the University of California (UC) in October, 2007. It is true that 
moving from a contractor that is a non-profit educational institution 
to a for-profit entity costs the Government more in taxes and 
management fee. At the same time, since LLNS took over the management 
of LLNL, the Laboratory's operating budget has declined. The 
combination of these factors has presented the LLNS management team 
with many challenges. Despite these challenges, LLNS has maintained 
UC's record of outstanding performance in the mission and scientific 
areas of work performed for the Government and non-Government sponsors.
    At this point in the 7-year base contract term, it is still too 
early to have realized significant benefits from the contract change. 
However, from NNSA's first annual performance evaluation report 
completed on LLNS in fiscal year 2008, we have seen some marked 
improvements and accomplishments in the following areas of activity:
    Mission:
  --Developed 1st generation 3D energy balance model for weapons 
        physics
  --Executed National Ignition Facility project within scope, schedule, 
        and budget
  --Accomplished significant computing advancements
  --Executed the TriPod strategy to provide a future common tri-lab 
        software system
  --Exceeded goals for removal of special nuclear material
  --Sustained world leading science despite staff reductions
  --Advancements in nonproliferation and threat reduction technical 
        capabilities
    Operations:
  --Accelerated safety compliance requirement submissions for all 
        nuclear facilities
  --Improved security protection without mission impact
    Business and Institutional Management:
  --Simplified the cost model and upgraded financial systems
  --Successfully executed a challenging workforce restructuring plan
  --Made significant progress in standing up a new contractor assurance 
        system --Implemented numerous cost reduction initiatives
  --Contributions of Parent organizations assessments to improvements
    Again, this was LLNS's first year accomplishments. We are currently 
evaluating their second year performance results (fiscal year 2009) and 
have observed further improvements. Based on our overall observations, 
we fully expect that there will be widespread improved results 
throughout the Laboratory in all areas of mission, operations and 
business/institutional management as the LLNS management team fully 
implements the changes it needs in order to become a more effective and 
efficient organization. As this occurs, the Government should begin to 
see the more significant benefits it hoped to realize from the contract 
change.
    Question. On May 23, 130 former employees of Lawrence Livermore 
National Laboratory filed suit against the lab alleging age 
discrimination during layoffs last May.
    I understand you may not be able to comment about this case, but 
what steps have you taken to ensure that labs are getting and retaining 
the best people, regardless of gender, age, or ethnicity?
    Answer. To entice university students to join NNSA, numerous 
intern-like programs that offer extensive training and on-the-job 
experiences are underway to recruit contractor employees including the 
Sandia Nuclear Weapons Intern Program that provides graduate level 
training in nuclear security enterprise operations and Department of 
Defense interfaces, the Nonproliferation Graduate Program for practical 
application in nuclear technologies and nonproliferation, and numerous 
postdoctoral fellowship, grants and intern opportunities. These intern 
programs educate university students about the mission of NNSA and 
offer training and hands-on educational opportunities that aren't often 
found in the private sector.
    To retain the best employees, the NNSA National Laboratories offer 
employees opportunities to participate in cutting edge science through 
the Laboratory Directed Research and Development program and via the 
Work for Others programs. There are also many prospects for employees 
to undertake detail assignments, job swaps, perform in acting 
management capacities, and education reimbursement and training 
opportunities. The goal is to provide challenging, career enhancing 
opportunities to entice experienced and expert employees to stay within 
the NNSA to retain skill sets that take years and years to develop.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester

    Question. In addition to strengthening the administration's ability 
to secure vulnerable nuclear stockpiles in Russia, will budget 
increases for programs like the Nuclear Materials Protection and 
Cooperation help secure weapons in other nations? If so, which ones and 
how are the resources allocated within the agency?
    Answer. Yes, the budget increases will allow our MPC&A program to 
partner with countries beyond Russia to help secure vulnerable nuclear 
materials. As with our work with Russia, this cooperation is tailored 
to an individual country's needs and can consist of security best 
practices sharing, provision of equipment, and related training. We 
would be able to offer a detailed briefing, as appropriate, regarding 
these other priorities.
    Question. In your opinion, Administrator D'Agostino, how far do the 
budget increases for securing vulnerable nuclear weapons and civilian 
stockpile go to do the job? What are the long-term budget needs going 
to be for the United States to help secure all of the most vulnerable 
stockpiles globally?
    Answer. Vulnerable nuclear fissile materials include highly 
enriched uranium (HEU) and plutonium whose physical protection is not 
on par with international standards (e.g., the IAEA guidelines 
published in INFCIRC/225/rev.4) or is otherwise judged to be at risk 
due to the particular threat environment in the country. Consistent 
with the President's April 5, 2009, speech in Prague, the 
administration is working to identify priorities for expanding and 
accelerating U.S. nonproliferation and nuclear security efforts to 
address these vulnerable nuclear materials overseas. NNSA fully 
supports the President's fiscal year 2010 budget request for 
nonproliferation and nuclear security work overseas as it allows us to 
address the highest priorities in achieving the President's 
unprecedented global nuclear security vision. In terms of the long-term 
budget needs for addressing vulnerable nuclear materials worldwide in 4 
years, the administration will continue efforts to identify remaining 
priorities and requirements.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

    NOT ALL SCIENCE FUNDING IS EQUAL--ESPECIALLY AT THE WEAPONS LABS

    Question. Mr. D'Agostino, I am troubled by the disparity in funding 
for applied and fundamental scientific research provided by DOE Office 
of Science labs versus the NNSA labs. Clearly, the cancellation of the 
Los Alamos Neutron Science Center (LANSCE) Refurbishment is the most 
glaring example of the selectiveness of the research funding in the 
budget. The LANSCE facility is the scientific cornerstone of Los 
Alamos, serving both classified and unclassified work and supporting 
over 500 users annually.
    How do you explain the failure in the budget to link the DOE and 
NNSA science?
    Answer. The DOE Office of Science budget is devoted to supporting 
basic science facilities, personnel, and grants that will impact broad 
missions. The NNSA budget has a technically broad but specific mission 
and must balance the fundamental and applied science required for 
stockpile stewardship with the equally important work required for 
directly maintaining the stockpile, and all of the associated 
infrastructure, security, and environmental compliance for the nuclear 
weapons complex. With increasing costs and flat or decreasing budgets, 
we have consequently had to balance investments in research needed to 
address future concerns in order to address immediate stockpile issues 
and aging infrastructure.
    Question. What do you see as the scientific future for Los Alamos 
LANSCE?
    Answer. The principal Stockpile Stewardship (SSP) experiments at 
LANSCE involve conducting measurements of nuclear data for use in 
improving the accuracy of the simulation of nuclear weapon detonations 
and proton radiography of high explosive driven materials. While some 
of these capabilities exist, in part, at other facilities it would be 
necessary to make significant investments at several facilities in 
order to conduct the SSP relevant experiments currently performed at 
LANSCE. The ability to perform classified experiments, experiments that 
utilize high explosives, and stockpile relevant materials all in one 
place is a unique aspect of LANSCE. The Office of Science continues to 
use LANSCE for isotope production, neutron scattering, and materials 
science and we expect this work to continue for the foreseeable future.
    Question. What are your plans for conducting this work after the 
accelerator is gone?
    Answer. We do not plan to close the accelerator. While we plan to 
continue to operate the accelerator for the foreseeable future, it 
isn't really possible to know how long the accelerator will be able to 
operate without refurbishment. The decision on whether to re-invest in 
the infrastructure at LANSCE will be deferred until after fiscal year 
2010. All of the individual components are in principle repairable 
indefinitely, assuming parts are available, but in practice we expect 
that the reliability of the facility will decay without further 
investment. Without aspects of the refurbishment in some form yet to be 
determined, we are accepting increased risk of major component failures 
affecting continued operations.

       STRATEGIC POSTURE COMMISSION--INVESTMENT IN INFRASTRUCTURE

    Question. Mr. D'Agostino, the bipartisan consensus of the Perry/
Schlesinger Strategic Posture Commission Report was that total 
disarmament is unlikely in the foreseeable future. As such, the 
Commission recommends the NNSA undertake a focused investment strategy 
to ensure a capability is in place to respond to unforeseen military 
challenges and maintain the extended deterrent for our allies.
    The foundation of that capability is the completion of the CMR-
Replacement facility (Los Alamos) and the UPF Facility at Y-12 (Oak 
Ridge, TN). These facilities replace 1950's era facilities that are not 
protective of worker health and safety, and the Defense Nuclear 
Facilities Safety Board recommends they should be closed as soon as 
possible.
    Given the unique responsibility of each facility and likelihood 
that the United States and Russia won't agree to eliminate their 
respective stockpiles when do you anticipate making a decision on the 
fate of these facilities and what are the decision drivers for this 
decision?
    Answer. Our recently submitted fiscal year 2010 budget reflects a 
transition year for Weapons Account Activities while we complete the 
administration's Nuclear Posture Review (NPR). We are presently 
continuing design work for CMR-Replacement and UPF but have not 
included future construction funding pending recommendations from the 
NPR. I anticipate the fiscal year 2011 budget to be submitted to 
Congress in February 2010 will reflect our decision approach relative 
to these two major nuclear facilities.
    We recognize the need to replace the existing 1950's era facilities 
as rapidly as practical. The drivers for our decision will include the 
specific recommendations in the NPR and our judgment on how to best 
balance the competing needs of our enterprise given the available 
resources. We must achieve the correct balance between sustaining our 
science and technology base, refurbishing or modernizing our stockpile, 
and recapitalizing major facilities that would include constructing the 
CMR-Replacement and UPF.
    Question. Recent press articles reported that the budget request is 
not adequate to sustain the existing design teams and would force 
layoffs. Do you believe this budget request would result in layoffs and 
contribute to further project delays at either of these facilities?
    Answer. Yes. The proposed fiscal year 2010 funding plan will result 
in lower staffing levels for the design teams for CMRR and UPF than 
previously planned. The delay in funding pending the strategic 
decisions of the Nuclear Posture Review (NPR) and related 
considerations will make completion of both projects later than 
originally planned. The administration plans to make decisions about 
these two projects in the broader context of the NPR.
    Question. Your budget will delay the completion of the RLUOB by 1 
year based on this budget estimate. How much more funding is needed to 
complete this facility including acquisition of equipment and 
installation to maintain the current schedule of 2010?
    Answer. The RLUOB will complete construction in September 2009 and 
be equipped and made ready during 2010-2012, with the schedule 
controlled by equipment delivery. The costs of acquisition and 
installation of the RLUOB equipment and related scope to bring the 
facility up to operations are currently estimated at about $199 
million, of which approximately $36 million has been appropriated 
already. The President's budget request plus previously appropriated 
funds adequately support RLUOB and its equipment.
    Question. How much is needed to fund a new start on UPF and CMR-R?
    Answer. NNSA does not contemplate a ``new start'' for either 
project in fiscal year 2010 because the designs are not yet complete. 
The fiscal year 2010 funding request will allow both projects to make 
some design progress and avoid the need for a re-start. The funding 
levels in fiscal year 2010 balance sustaining continuity of the 
projects with minimizing commitment of resources until after completion 
of the Nuclear Posture Review.
    Question. The Defense Nuclear Facilities Safety Board also stated 
unequivocally that NNSA needs to get out of both the CMR and Y-12 
facilities. As a result of the delays created by the budget request, 
what will you tell the Defense Board, the scientists, and staff working 
in the old facilities that fall below the required structural and 
health and safety standards?
    Answer. The CMR facility at Los Alamos and the uranium processing 
facilities (9212/9215) at Y-12 are old, past-end-of-life facilities. 
Although these facilities are about 60 years old, we are maintaining 
and operating these facilities in a safe and secure manner. Over the 
past decade, we initiated actions and took proactive steps to reduce 
the hazards at these facilities. For example, improvement of facility 
safety systems, reduction of nuclear material inventories, 
implementation of new safety controls, etc., were some of the actions 
taken to enhance both the public and worker safety. This approach, 
however, does not fix the root problem of end-of-life infrastructure 
and is a temporary approach. Additional infrastructure investments will 
be needed to continue to safely operate these facilities until 
replacement facilities become available.
    Until replacement facilities are available for both CMR and Y-12 
facilities, we will continue to safely operate and maintain the 
existing facilities but at increasing costs, and manage increasing 
program vulnerability and safety risk. At CMR, risk reduction steps are 
being implemented through the CMR Facility Consolidation and Risk 
Mitigation Program. At Y-12, risk mitigation activities will be 
implemented through investment in the Facility Risk Reduction Program. 
In the absence of a decision on replacement facilities, dedicated 
commitment for increased operations funding would be required to 
continue to safely operate these facilities.
    transferring the tritium mission is a waste of taxpayer dollars
    Question. Mr. D'Agostino, last year, an independent study of the 
proposed transfer of the tritium R&D and design missions found that 
there was ``no programmatic or economic justification for closing down 
the LANL tritium R&D facility and reestablishing the capabilities at 
the Savannah River tritium site.''
    It is my understanding that the NNSA's Navy and Air Force customers 
are not convinced this transfer makes sense and find no justification 
for the move.
    Also, General Smolen, who was your deputy at the NNSA, recently 
stated in the press that ``There's really not any huge cost savings one 
way or another.'' He went on to say that the reason behind the decision 
was related to work-load leveling.
    As you are undoubtedly aware, the Senate included language in the 
supplemental stopping the transfer until an independent analysis can be 
performed of this decision and we can better understand the NNSA's 
rationale for this costly and unjustified decision.
    What was the rationale for the NNSA ignoring the TechSource study 
recommendation which advised against moving the tritium missions?
    Answer. We do not believe the TechSource study advised against 
moving the tritium missions as much as it stated that such a move 
should have a programmatic or economic justification, considering the 
importance of the GTS mission. The TechSource study provided useful 
recommendations for mitigating risks during the transition, and these 
have been incorporated into our implementation planning.
    Question. Do you support General Smolen's argument that work-load 
leveling was the rationale for this decision?
    Answer. Work-load leveling may be a benefit of this transition, 
however there are two other significant benefits. The first has to do 
with the potential for Sandia to provide a more integrated system 
architecture, incorporating GTS into the other non-nuclear subsystems. 
The second is that, as time goes on, it may no longer be possible to 
maintain a critical mass of technology staffs at multiple locations. 
While it may be possible to support two design agencies today, and to 
support two R&D centers that load and handle bulk quantities of 
tritium, we anticipate that future downsizing of the enterprise will 
force us to choose to have only one DA and one tritium R&D center of 
excellence. It seems prudent to plan ahead for this eventuality rather 
than to cope with it after the opportune time for transition has past. 
With the Savannah River Site having been established as the Tritium 
Center of Excellence, closer coordination of the R&D enterprise with 
the production facility is expected to be an advantageous initiative.
    Question. Will the tritium GTS mission be impacted by the Nuclear 
Posture Review?
    Answer. The likely outcome of the NPR is expected to lend further 
support to the GTS transition decision. Projected future workloads do 
not support keeping highly specialized technical expertise at multiple 
sites, and more leveraging of talent will be required to support system 
needs. The mechanical and materials knowledge will need to be applied 
across multiple component sets. As the NPR relates to stockpile size, 
our expectation is that the GTS DA and tritium R&D missions and 
workloads will not be significantly affected. Considering the range of 
probable recommendations, we will still need to support GTS 
technologies that are currently deployed, and to make further 
improvements to the reliability, safety, and surety of GTS units in the 
future. Reductions in the quantities of systems deployed or developed 
will not result in proportional reductions in the need for GTS field 
support or development but may constrain the resource base available to 
support these missions.
    Question. Dr. Seymour Sack sent a letter to Mr. D'Agostino on Feb 
8, 2008 to which a response was sent. Can you please forward a copy of 
Dr. Sack's letter regarding transfer of the tritium gas transfer system 
to my office or the Senate Security Office if it is classified?
    Answer. Yes. We did receive Dr. Sack's letter addressing his 
concerns with our decision process. We will provide a copy of Dr. 
Sack's letter as well as our response.

     DOES THIS ADMINISTRATION SUPPORT IMPROVED WEAPONS USE-DENIAL 
                              STRATEGIES?

    Question. Given the importance of the B61 to sustaining a safe, 
secure and reliable nuclear deterrent for the United States and its 
allies, the NNSA has made a decision to proceed with the B61 Life 
Extension Program. I have two concerns with your budget request. The 
first, it fails to provide sufficient funding to support a full 
feasibility study of both nuclear and non-nuclear parts as requested by 
the Air Force. Second, it fails to evaluate the option to integrate 
state-of-the-art use control devices. I believe it is important that 
the weapons we do retain have the best safety and security features 
built into them.
    Does the administration support adding more state-of-the-art safety 
and security features to our nuclear weapons systems like the B61?
    Answer. NNSA is committed to improving the surety (safety, security 
and use control) of the nuclear weapons stockpile at each insertion 
opportunity. This commitment meets the national imperative to ensure an 
adversary, either a nation or terrorist, never obtains a functional 
U.S. nuclear weapon. U.S. Presidents have consistently articulated this 
imperative through directive or policy such the National Security 
Presidential Directive 28 and more recently articulated by our 
President in the speech he delivered in Prague, April 2009.
    As directed by the Nuclear Weapons Council, the Phase 6.2 life 
extension study for the B61 Mods 3, 4, 7, and 10 bombs began in 
September 2008, and we are evaluating, within existing funding 
constraints, the inclusion of state-of-the-art surety features in both 
the non-nuclear and nuclear systems during the study.
    Question. How much more would it cost to expand the feasibility 
study to include adding safety and surety features to the physics 
package?
    Answer. The NWC has directed a study including improving surety of 
the nuclear explosive package (NEP). NNSA estimates that an additional 
$30 million in fiscal year 2010 would be needed to fully support the 
addition of the nuclear scope to the study. This includes the study of 
options to add improved safety, security and use control to the NEP. 
This additional scope and resources are needed to complete the 
feasibility study in fiscal year 2010 and align the program to achieve 
a first production unit by 2017. Alignment between the NNSA and DOD is 
essential to providing the needed capability.
    Question. Since this is an Air Force weapon, can you tell me what 
their preference would be regarding the expansion of this study to 
include the physics package?
    Answer. During an April 2009 senior-level review, the Air Force and 
other DOD representatives made it clear that it is a priority for NNSA 
to include the NEP in the B61 life extension study. In addition, senior 
Air Force officials have communicated with the Secretary of Energy, the 
NNSA Administrator, and congressional staff their strong endorsement of 
adding enhanced safety and security features within the nuclear 
explosive package.

                           ADVANCED COMPUTING

    Question. Supercomputing is another success of Stockpile 
Stewardship. You have the fastest computer in the world, and NNSA has 
achieved modeling and simulation capabilities that many thought 
impossible.
    The Defense Science Board conducted a study of the Advanced 
Computing program and was very complimentary of the achievements in 
this program to develop a predictive and simulation capability and 
drive innovation in the advanced computing architecture.
    The Defense Science Board study concluded that the existing budgets 
are inadequate to achieve the milestones established by the NNSA.
    Can you please provide the subcommittee with a list of the current 
milestones and the status of each and what impact the budget request 
will have on each milestone?
    Answer. Computer simulation underpins our ability to certify 
weapons in the absence of testing, as well as meet our broad national 
security responsibilities. ASC planning is based in part on the urgency 
of developing predictive tools while experts still reside in the 
complex. The ``milestones'' in the ASC Roadmap (2006) to which the 
Defense Science Board (DSB) report refers are actually stretch goals 
along the pathway set forth in four focus areas necessary to meet 
national security simulation needs. These target goals include, for 
example, developing science-based replacements for (ad hoc models) 
Knobs #1-4 in the 2009-2016 timeframe, attaining a 100x petascale 
computing capability in 2016, an exascale computing capability in 2018, 
and a 50 percent improvement in setup-to-solution time for significant 
finding investigation (SFI) simulations. The knob-removal goals are key 
stockpile stewardship objectives and have been incorporated into the 
Predictive Capability Framework (PCF) that integrates activities of the 
NNSA simulation, science and engineering campaigns. The target date for 
achieving these stretch goals may change depending on funding or as 
more insight is gained about the problems.
    The NNSA has decided to keep the 2010 budget for science level with 
2009 pending outcome from the Quadrennial Defense Review (QDR) and the 
Nuclear Posture Review (NPR). To some degree, the declining funding 
that the DSB reviewed has been stemmed. However, their question about 
how the ASC program intends to meet roadmap stretch goals in a timely 
fashion, such as achieving exascale computing by 2018 to support 
stockpile stewardship, remains a legitimate concern.
    Question. What is your plan for developing the next generation of 
computers and how is this effort specifically being coordinated with 
the Office of Science?
    Answer. There has been an ongoing R&D partnership between ASC and 
DOE Office of Science's Argonne National Laboratory (ANL) to develop 
advanced supercomputers based on the BlueGene P/Q architecture. 
However, this level of collaboration and associated funding will not 
achieve exascale computing. Developing the next generation of 
(exascale) computers will be a significant challenge, more difficult 
than the first effort under ASCI to develop a 100 teraFlop 
computational capability. Machines at the exascale will require 
radically new ways of thinking about computer architectures and ways to 
program applications.
    We recognize that this is a challenge beyond the scope of ASC alone 
within current funding projections, and that it will require a 
Government-wide solution. To this end we have taken the first steps to 
establish a collaboration with the Office of Science to make exascale 
computing a reality. This joint collaboration was announced at the June 
2009 Scientific Discovery through Advanced Computing (SciDAC) 
Conference in San Diego, CA, and a steering group has been formed. The 
first task for the steering group is to report to the ASCR and ASC 
programs the scope of what needs to be done to achieve exascale 
computing. Once identified, the scope could require focused investments 
for a period of time to be successful. The programs' intent is to work 
together through shared investments towards a common goal of achieving 
exascale computing by the end of the next decade.
    Question. And, what is your plan for ensuring that the 
sophisticated computer codes and models that you have in place now will 
be able to be run on these new generations of supercomputers?
    Answer. Generally, our modern-multiphysics codes are continuously 
updated. Portions of the codes that can best take advantage of the new 
architectures are modified to do so. Writing code can take years to 
achieve, and must be well planned and synchronized with evolving 
technologies. Consequently, ASC must be intimately involved with the 
technology frontier. Our approach ensures that the power of the 
supercomputers is available to users of the existing code base; it 
provides a reliable but very modest improvement in code and model 
performance. By adopting this incremental approach, risk that our codes 
and models will not be available is minimized.
    This approach will likely not be sufficient as we approach exascale 
computing. But, at this time it is premature to project what will be 
needed to move our codes to an, as yet, unknown architecture. Our 
planning will be synchronized with architectural designs as they 
mature. At that time we will make the traditional trade-offs between 
advancing the current codes, freezing development until transitioning 
is complete, or accelerating the transition by expanding the work 
scope. While we generally have not had to rely on expanding work scope 
in the recent past, this scenario is more likely as we approach 
exascale, which will dictate the need for additional funding for a 
limited term initiative in future years.
    Question. Can you please provide the subcommittee with a project 
data sheet on for the Zia and Sequoia machines, including cost, 
schedule, and mission justification?

                              PART 1--ZIA

    Answer: The DOE NNSA ASC Program requires a production capability 
computing system in 2010 to run extensive, high-fidelity integral 
calculations of high-priority applications within the Complex to 
support the national Stockpile Stewardship Program. The Zia capability 
system will replace the ASC Purple system for existing simulation codes 
as the next national user facility for computing across the tri-labs. 
This system will provide a capability class resource to the ASC 
simulation community for the 2010-2015 timeframe.
    Zia has a 3-year schedule, with delivery of the platform scheduled 
for Q3 fiscal year 2010 and assume the national user facility workload 
by the beginning of fiscal year 2011. The funding profile for Zia is as 
follows: fiscal year 2008--$0; fiscal year 2009--$15 million in budget, 
$0 spent with project at CD-1; fiscal year 2010--$42.36 million; fiscal 
year 2011--$14.6 million.

                            PART 2--SEQUOIA

    Answer: The Sequoia mission need is to run both high-fidelity 
science calculations and three-dimensional uncertainty quantification 
(UQ) calculations. In addition, Sequoia is an advanced architecture 
system that will push the state of the art on the road to exascale 
computing. It will provide the processing power necessary to run the 
most resolved calculations required by the weapons codes as they will 
exist between 2011 and 2016.
    The scope of this project covers acquisition of Sequoia 
computational resources and related I/O infrastructure, platform vendor 
build contract, platform vendor development and engineering (D&E) 
contract, and an I/O infrastructure D&E contract. In addition to the 
2011 system delivery, the Sequoia contract will provide a smaller, but 
significant, initial delivery (ID) environment beginning in 2008 to 
permit the necessary scaling and code development to ensure effective 
use of the final platform.
    Sequoia has an extended 5-year schedule, with delivery of the final 
system scheduled for Q1 fiscal year 2012. The Future Years Nuclear 
Security Plan (FYNSP) funding profile for Sequoia is as follows: fiscal 
year 2008--$15 million; fiscal year 2009--$54 million in budget, $42 
million spent; fiscal year 2010--$14.5 million; fiscal year 2011--$38.7 
million; fiscal year 2012--$51.8 million; fiscal year 2013--$43.0 
million.

     CUT TO NONPROLIFERATION AND DETECTION RESEARCH AND DEVELOPMENT

    Question. Mr. D'Agostino, the budget request cuts the nuclear 
detection R&D budget by $66 million. This funding is critical to 
maintaining the technological advances to detect and monitor 
clandestine nuclear program or to catch smuggling of nuclear materials. 
In light of the activities in North Korea and Iran, it seems this 
funding reduction should be reconsidered.
    What is the rationale for this reduction?
    The apparent ``reduction'' of $66 million comes from comparing the 
fiscal year 2010 budget request with a fiscal year 2009 appropriation 
that was significantly higher than the fiscal year 2009 budget request. 
The administration's fiscal year 2010 budget request is greater than 
the fiscal year 2009 request.
    Question. Recent reports, including the Strategic Posture Review 
and the Council of Foreign Policy, recommended increased funding for 
forensic research and attribution. Can you please describe how this 
program is investing in our forensic and attribution capabilities and 
what long term investments in NNSA facilities aside from the 300 Area 
at PNNL where this program is building our capabilities?
    Answer. NNSA investments include purchase of specific scientific 
instrumentation for the NNSA laboratories to advance research in post-
detonation forensics analytical methods (some examples include: laser 
fluorination isotope ratio mass spectrometer (LLNL); Cameca secondary 
ion mass spectrometer (SIMS-LANL); Los Alamos Sferic array (measures 
ground EMP)). In addition to these activities funded by the NN R&D 
program, NNSA funds national technical nuclear forensics work through 
the Nuclear Counterterrorism and Incident Response program at about $10 
million annually.
    Question. NNSA facilities provide significant and varied research 
and discovery capabilities for different users and mission need. Each 
of these facilities is costly to maintain and staff. Can you please 
tell the subcommittee how much of the annual Nonproliferation and 
Detection R&D budget contributes to operations funding at our national 
labs in both real dollar amount and as a percentage of facility 
operations.
    Answer. NNSA's Defense Nuclear Nonproliferation (DNN), Office of 
Nonproliferation and Verification R&D funding is presented as a 
percentage of estimated overall NNSA fiscal year 2009 funding to the 
listed DOE/NNSA labs. The following table is provided.

           FISCAL YEAR 2009 APPROPRIATIONS--ALLOCATED BY SITE
                      [Estimates in whole dollars]
------------------------------------------------------------------------
                                        Nonproliferation    Percent of
           Reporting Entity             and Verification     NNSA Site
                                               R&D            Funding
------------------------------------------------------------------------
Ames National Laboratory..............         $236,000           100.0
Argonne National Laboratory...........        3,275,000             6.8
Brookhaven Science Association (BNL)..        2,171,000             5.1
BWXT Pantex...........................           35,000            <0.01
BWXT Y-12.............................        2,226,000             0.3
NNSA-HQ (including SBIR)..............       11,043,129            13.2
Idaho National Lab....................        4,595,000             2.3
Kansas City Plant.....................           35,000            <0.01
Lawrence Berkley National Lab.........        5,376,000            94.9
Lawrence Livermore National Lab.......       43,184,671             4.2
Los Alamos National Lab...............       88,231,445             6.0
NNSA-Service Center (incl. University        16,622,605             1.9
 grants)..............................
NSTech................................       10,538,000             3.9
Oak Ridge National Lab................       25,306,746            18.6
Pacific North West Lab................       42,257,800            19.5
PNSO/PNNL Construction................       18,460,000            98.8
Sandia National Lab...................       73,144,604             6.7
Savannah River Nuclear Solutions......       17,054,000             6.2
                                       ---------------------------------
      TOTALS..........................      363,792,000             4.9
------------------------------------------------------------------------

    Question. What are the long term technology challenges this program 
is working to solve and what are the top research priorities in this 
budget?
    Answer. The top research priorities in this budget are divided into 
two areas. Roughly 60 percent of the budget will focus on developing 
technologies and methods to detect foreign uranium-235 production 
activities, plutonium production activities, special nuclear material 
movement and on developing Global Nuclear Safeguards technologies. The 
other 40 percent of the budget will focus on improving the Nation's 
ability to detect nuclear detonations by building the Nation's 
operational treaty monitoring space sensors, developing the regional 
geophysical capabilities to enable the Nation's ground-based treaty 
monitoring networks, and advancing technology in post-detonation 
nuclear forensics.

                   HIGHLY ENRICHED URANIUM IN RUSSIA

    Question. Mr. D'Agostino, your testimony and pronouncements of the 
administration have clearly made nonproliferation a top priority 
including the goal of minimizing the use of highly-enriched uranium in 
the civilian nuclear sector. I am supportive of those goals, although I 
am concerned about the vast amount of undeclared reserves of Highly 
Enriched Uranium (HEU) held by Russia, which is outside of the scope of 
the existing program.
    Reports vary, but it is quite possible that Russian HEU stockpiles 
make up the largest inventory of weapon-usable material held in the 
world today.
    When President Obama travels to Russia this July to sign the 
Plutonium Material and Disposition Agreement, will he press Russian 
President Medvedev to declare the size and makeup of the Russian HEU 
reserves and press for additional down blending of that material, 
whether it is used in Russia or sold internationally?
    Answer. Nonproliferation, and specifically, eliminating stocks of 
excess fissile material are key priorities of this administration. 
Coming to agreement on the terms of the Plutonium Management and 
Disposition Agreement is one important step in this effort. The 
President also has committed to seek further weapons reductions under a 
START Follow-On Treaty and to open negotiations for a Fissile Material 
Cut-off Treaty. Given the critical success of the DOE/NNSA HEU 
Transparency Program over the past 15 years to verify the disposition 
of over 368 metric tons of the planned 500 metric tons of Russian HEU, 
we would welcome the possibility of down blending additional excess 
Russian HEU. This HEU Transparency effort has been one of our most 
successful bilateral nonproliferation efforts with Russia yet in the 
area of tangibly eliminating weapons-derived material. However, to date 
the Russians have been unwilling to consider an extension beyond the 
2013 end date of this program. DOE/NNSA would certainly welcome the 
continuation of this important effort if Russia declares additional 
amounts of excess HEU beyond the initial 500 metric tons in the HEU 
Agreement.
    Question. Your budget proposes additional investment to secure 
weapons-grade material in Russia. Wouldn't you prefer that this 
material be down blended to eliminate any further threats?
    Answer. We would prefer that excess material be downblended; we are 
already working with the Russians to downblend HEU under the Material 
Consolidation and Conversion project that is not of weapons origin and 
that has been declared excess by the Russians. We think this activity 
would be a way to help Russia eliminate the risks associated with this 
and all nuclear material, as well as avoid the associated long-term 
security costs. However, some Russian sites require weapons-useable HEU 
for their operations. In those cases, our joint intent is to protect 
the material as well as possible. Central storage facilities with 
modern security systems are a good way to improve material security.

                             CYBER SECURITY

    Question. Mr. D'Agostino, I find it curious that the DOE Office of 
Electricity Transmission Delivery and Reliability received $50 million 
in additional funding for cyber security research and development, yet 
the NNSA, which has seen a tremendous increase in cyber attacks of the 
past years, and recently in the last several months, received no 
additional funding increases.
    How do you explain this funding disparity?
    Answer. Funding for all programs within DOE, to include NNSA is 
determined by the Secretary of Energy through a very prescriptive 
process. NNSA's cyber security requirements are first presented by the 
NNSA CIO to the NNSA Administrator. The Administrator, after 
determining the highest priority needs for NNSA, makes the final 
recommendation to the Secretary who makes the final corporate decision.
    Question. Are you confident that the NNSA has adequate cyber 
protections in place to protect our national security secrets?
    Answer. The threats to the national security information and 
classified system within the NNSA computing environment are constantly 
changing and represent risks to our operations. However with the 
technology enhancement (i.e. EnCase Enterprise) and process 
improvements (NNSA Policy (NAP)) NNSA have invested in over past 2 
years, I believe that we have minimized the threats to the NNSA 
computing environment and national security information and are 
operating at an acceptable level of risk. NNSA's cyber security systems 
have benefited by external independent oversight programs, such as HSS, 
with activities such as network penetration testing and reviews of 
security plans and strategies. The Department and NNSA senior 
leadership will continue to monitor the threats to our computing assets 
along with the accompanying risks in order to make necessary changes 
and provide an appropriate level of protection.

                                SECURITY

    Question. Mr. D'Agostino, several NNSA sites have suggested that 
funding of safeguards and security is inadequate to support the 
mission. Do you have any security concerns with any NNSA site or do you 
believe any of the NNSA sites lack sufficient funding?
    Answer. The fiscal year 2010 budget request is adequate to support 
the core security mission and maintain the program within acceptable 
risk levels. At the request level, NNSA sites will be able to sustain 
the security baseline program and support NNSA Enterprise-wide efforts 
to consolidate high-security assets and reduce the overall security 
footprint. In fiscal year 2010, the NNSA security program will focus on 
improving the effectiveness and efficiency of security operations 
through standardization and consistency of security program 
implementation, and upgrades to the security systems infrastructure so 
as to enable the sites to maintain performance of the security mission 
at the same or reduced funding levels in the out-years. To this end, we 
are investing in improved performance assurance programs at each site, 
with emphasis on Federal manager oversight, and have undertaken a new 
initiative (Zero-Based Security Review) with the objectives of 
establishing clear performance expectations, and issuing consistent 
policy implementing guidance. NNSA sites are, and must remain, among 
the most well-protected facilities in the world.

                             NAVAL REACTORS

    Question. Mr. D'Agostino, your budget proposes to move forward on 
an Ohio Class submarine replacement. At the same time, you have frozen 
progress on CMR-R and UPF and other facilities pending the outcome of 
the NPR.
    Why not wait on the new submarine platform until the NPR is 
complete?
    Answer. The President has reaffirmed the need to maintain a strong 
deterrent for the foreseeable future. To ensure there is no gap in 
strategic coverage when the OHIO Class SSBNs begin to retire in 2027, 
we need to start concept design studies for the OHIO Class Replacement 
in fiscal year 2010. There are key technical and schedule drivers that 
require the fiscal year 2010 start so design and technology can mature 
to support a fiscal year 2019 ship construction schedule. Early design 
studies answer questions that will arise from the NPR deliberations. 
The design parameters under consideration are aimed at accommodating 
any conceivable conclusion of the NPR. The NPR will not determine the 
design of the submarine, but rather the number of weapons and targets. 
A reduction in weapons may result in fewer missile tubes per submarine; 
however, the total number of submarines is primarily derived from the 
number required at sea at any given time to provide a survivable 
deterrent in the regions we need to cover.
    Question. How is this investment different than that of a one-of-a-
kind facility such as CMR-R and UPF, both of which are necessary in 
order to maintain the deterrent?
    Answer. There are more investment similarities than differences 
between the Ohio Class Replacement project and the CMR-R and UPF 
projects required to modernize the NNSA nuclear infrastructure. All are 
needed to sustain essential capabilities for the long-term and the 
details of NPR conclusions will not have significant impact on early 
design activities. Early design work is needed for all three in order 
to most efficiently plan for sustaining capabilities. The investment in 
the OHIO Class Replacement project differs from that in the CMR-R and 
UPF projects only in the maturity of its design. While the OHIO Class 
Replacement project will be starting its conceptual design in fiscal 
year 2010, the CMR-R and UPF projects are both currently in latter 
stages of preliminary design. The previous answer pointed out how OHIO 
Class Replacement design at its current maturity is independent of the 
NPR's conclusions. Although more mature, the designs of both the CMR-R 
and UPF projects are primarily driven by the need to maintain essential 
capabilities that are expected to provide an adequate capacity merely 
by the existence of the capability. Thus, CMR-R and UPF sizes and 
capacities are independent of the NPR's conclusions at expected future 
stockpile size ranges.

                           PENSION SHORTFALLS

    Question. Mr. D'Agostino, The stock market down turn over the past 
year has significantly reduced the DOE contractor pension value. In 
order to make up the shortfall, contractors are required to adjust 
their program charges (known as the indirect rate). According to 
figures prepared by the Department, the average total contributions 
paid to DOE contractor pension plans from 2003 to 2008 was $330 
million. In the future, DOE expects to pay on average $1.5 billion per 
year over the next 5 years. The peak contribution years are estimated 
to come in 2012 and 2013 at just under $2 billion per year. The lion 
share of the contributions coming from NNSA and Environmental Cleanup 
sites.
    Based on this 2010 budget request, it appears that the NNSA is 
facing a pension shortfall of $411 million, of which $200 million was 
not budgeted for and will further reduce mission funding. It is my 
understanding that NNSA plans to deduct most of the savings out of the 
operating budget and delay facility closures and preventative 
maintenance and the consolidation of special nuclear materials.
    This trend is simply unsustainable and will have a devastating 
impact on the weapons and nonproliferation program. Has the Department 
considered the program impacts on to scientific research, operations 
and employment levels? What actions are being taken to mitigate this 
problem over the next 5 years?
    Answer. Because the pension payments for the Defined Benefit plans 
are a function of economic conditions, the number of retirees to 
receive benefits, and largely address legacy promises of benefits, we 
are very limited in what we can do now to mitigate the problem 
indicated by the analysis. Except for a few collective bargaining unit 
Plans, the NNSA M&O contractors have closed their defined benefit 
programs to new entrants in favor of defined contributions (401K) type 
of retirement plans. As a result, there is little to be done to reduce 
costs in the DB arena, instead NNSA and its M&O contractors are seeking 
ways to better address future payments.
    The pension plans of DOE's M&O contractors have suffered losses in 
asset value similar to those in the private sector as a result of the 
business downtown in the past 12 months. Overall, their plans are in 
relatively good shape compared to the rest of industry, however, the 
recession coupled with new Pension Protection Act requirements has 
resulted in funding shortfalls for some of plans.
    Additionally, our M&O contractors continue to experience 
fluctuations in pension liabilities, and the increased liabilities 
coupled with the decrease in Plan assets has resulted in a significant 
increase in the required contributions to pension plans at some of our 
sites. NNSA is monitoring the situation to understand the projected 
shortfalls, and to mitigate the resulting impact on all of our mission 
program activities, operations and employment levels. NNSA will 
exercise all flexibility available during budget execution to manage 
site and program impacts by incentivizing operating efficiencies at the 
M&O contractors, by reallocating available funding to affected 
contractors through reprogramming of remainder funding from completed 
projects and programs; and by deferring or canceling lower priority 
activities. However, the current projections for 2011 through 2013 of 
about $1 billion shortfall annually in budgeted dollars, which are 
likely to be required to reimburse our laboratory and plant contractors 
for their payments to defined benefit pension plans, are beyond the 
ability of the NNSA to handle through increased efficiencies and 
limited reprogramming from remainders in project funding. If economic 
improvements do not materialize to mitigate these cost increases, NNSA 
may well be required to drastically cut back, and in some cases 
abandon, planned activities at our Sites resulting in the potential for 
significant workforce restructurings.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander

    Question. The President's budget request shows no construction 
funding for the Uranium Processing Facility (UPF) until 2013 which puts 
the project 3-4 years behind schedule.
    If UPF is delayed beyond its currently planned operational date of 
2018, is it reasonable to assume that the Y-12 enriched uranium 
facilities can remain safe and reliable beyond 2018?
    Answer. The President's budget request included $54,478,000 for 
Project Engineering and Design of UPF in order to advance the project`s 
design, in accordance with the requirements of DOE Order 413.3A. NNSA 
will take the steps necessary to maintain the Y-12 enriched uranium 
facilities safe and reliable until UPF becomes operational. Concrete 
measures are being taken to reduce risk at Y-12. For instance, the 
Nuclear Facility Risk Reduction Project, a multi-year effort funding 
maintenance and limited improvements, will address the safety and 
reliability of uranium facilities until UPF can be built to replace 
those facilities. While sufficient capacity exists today, the risk of 
extended shutdown is unacceptably high and safety of operations remains 
a major concern. The Uranium Processing Facility (UPF) must be built to 
alleviate the risk of shutdown, reduce costs, and provide a safe 
working environment for our nuclear security workers. Construction of 
this facility is mission critical and will take at least 7 years to 
complete. Each year NNSA is required to take measures to mitigate the 
growing risks is another year longer the Nation runs the risk of losing 
its uranium processing capability, with a commensurate impact on its 
nuclear deterrent and its ability to supply the Navy with fuel.
    Question. How long would it take for the UPF to pay for itself in 
reduced annual costs?
    Answer. Based on the current preliminary project estimates, UPF's 
payback period is approximately 10 to 15 years. The UPF project's 
contribution to safety of the Y-12 site and of the public is, however, 
the overriding justification of the project--even if the actual payback 
period is found to be longer, it would not have been acceptable to 
continue operations in the current facilities.
    Question. What is the condition of Building 9212, where the uranium 
enrichment work currently takes place? Is this facility viable for 
long-term enriched uranium mission capability?
    Answer. Building 9212 is not suitable for performing long-term 
enriched uranium services. The enriched uranium services need to be 
transferred to a facility that can support long-term sustainability and 
meet modern industrial and nuclear safety standards. The enriched 
uranium services are being conducted in Building 9212, pending 
availability of UPF. NNSA will take the steps necessary to maintain the 
Y-12 enriched uranium facilities safe and reliable until UPF becomes 
operational. Our current uranium infrastructure is obsolete, costly, 
and decrepit. The risk of extended shutdown is unacceptably high, and 
worker safety continues to be a major concern.
    Question. If there were no new nuclear weapons production or life 
extension, would UPF still be needed?
    Answer. Yes, UPF sustains capabilities that are needed as long as 
the Nation has an inventory of HEU. UPF is essential to dismantling 
weapons to support arms controls initiatives, supporting the Naval 
Nuclear Reactors Program, for down-blending excess enriched uranium for 
non-proliferation purposes, and ultimately for power and research 
reactors (i.e., Accelerator Test Facility and High Flux Isotope 
Reactor). UPF is needed to support all stockpile activities involving 
the processing of Highly Enriched Uranium (HEU), including the 
surveillance and dismantlement programs. Many studies conducted on the 
UPF design, including the recently issued Dr. Everet Beckner/TechSource 
Study, concluded that approximately 75 percent of the UPF is required 
even if no new weapon is ever built and noted that continued operations 
of the current facilities at Y-12 past 2020, in particular the 9212 
building, would require accepting an appreciably increased safety risk.
    Question. Who has reviewed the capabilities and size of the UPF 
facility?
    Answer. The capabilities and size of UPF have been assessed both 
internal and external to NNSA over the past few years. First, the Y-12 
project team and NNSA Headquarters led a review of UPF that included 
subject matter experts from across the nuclear security enterprise, 
including the national laboratories. Second, NNSA conducted a joint 
review of UPF with technical assistance provided by the United 
Kingdom's Aldermaston Weapons Establishment. Third and most recently, 
NNSA chartered an independent external review committee headed up by 
former Deputy Administrator for Defense Programs, Dr. Everet Beckner. 
As stated by Dr. Beckner in his team's final report: ``Based upon our 
review, as will be demonstrated in the following report, I am now 
convinced that given the requirements as defined, a substantial change 
of size of the facility is not warranted at this time and the project 
should move forward without further delay.''
    Question. Can the enriched uranium mission be performed anywhere 
other than Y-12?
    Answer. No, the uranium enrichment mission can not be accomplished 
at other sites without additional funding. UPF (and the facilities it 
replaces) are part of an integrated manufacturing operation that 
includes the soon-to-be-completed Highly Enriched Uranium Manufacturing 
Facility (HEUMF) and the non-nuclear operations of the Y-12 site. It is 
possible for portions of the enriched uranium mission to be met in new 
facilities at two alternative sites, the Savannah River Site (down-
blending, sweetening, reuse of material) and the Pantex Plant 
(surveillance, disassembly), but with differing schedules, costs, and 
risk levels, and with the replication at some level of the capabilities 
of other parts of Y-12's integrated operation. An Integrated Project 
Team (IPT) conducted an analysis evaluating these alternative sites and 
produced a report on Uranium Mission Transformation in July 2008. As 
part of this effort, NNSA asked the Office of the Secretary of Defense 
(OSD) Cost Analysis Investment Group (CAIG) to act as an independent 
advisor to the IPT for this comparative business case analysis. The 
total operations and transportation costs were lower for Y-12 than the 
other alternatives. A new, fully trained, and qualified workforce would 
also have to be established if the mission were to be performed 
elsewhere. Overall, the comparative risk and costs are lower for Y-12 
than the alternative sites considered. The IPT concluded that the 
uranium mission should be retained at Y-12.
    Question. Your office has been studying how best to compete the 
NNSA production contracts (Y-12, Pantex, and Kansas City Plant) that 
are expiring next year. Recently your spokesman indicated the NNSA 
leadership would review the work of the team, who provided analysis for 
this decision, over the coming months. Given you are in the window 
where a decision needs to be made soon if new contracts are to be put 
in place, can you be more specific on schedule for this action.
    Answer. The acquisition strategy is in the final review process and 
we expect a decision in the near future. The extend/compete decisions 
will require Secretarial approval.

                          SUBCOMMITTEE RECESS

    Senator Dorgan. This hearing is recessed.
    [Whereupon, at 11:08 a.m., Tuesday, June 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
